<html>
<title> - NOMINATION OF TARA MAC LEAN SWEENEY OF ALASKA TO BE ASSISTANT SECRETARY, INDIAN AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR</title>
<body><pre>[Senate Hearing 115-291]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-291

     NOMINATION OF TARA MAC LEAN SWEENEY OF ALASKA TO BE ASSISTANT 
       SECRETARY, INDIAN AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 9, 2018

                               __________

         Printed for the use of the Committee on Indian Affairs
         
         
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-924 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6c0b1c032c0f191f180409001c420f030142">[email&#160;protected]</a> 

         


                      COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JOHN McCAIN, Arizona                 JON TESTER, Montana,
LISA MURKOWSKI, Alaska               BRIAN SCHATZ, Hawaii
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
STEVE DAINES, Montana                CATHERINE CORTEZ MASTO, Nevada
MIKE CRAPO, Idaho                    TINA SMITH, Minnesota
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 9, 2018......................................     1
Statement of Senator Cantwell....................................    38
Statement of Senator Cortez Masto................................    45
Statement of Senator Daines......................................    40
Statement of Senator Heitkamp....................................     5
Statement of Senator Hoeven......................................     1
Statement of Senator Murkowski...................................     3
Statement of Senator Smith.......................................    36
Statement of Senator Sullivan....................................     6
Statement of Senator Tester......................................     4
Statement of Senator Udall.......................................     2

                               Witnesses

Sweeney, Tara Mac Lean, Nominee to be Assistant Secretary, Indian 
  Affairs, U.S. Department of the Interior.......................     8
    Biographical information.....................................    13
    Prepared statement...........................................    11

                                Appendix

Response to written questions submitted to Tara Mac Lean Sweeney 
  by:
    Hon. Richard Blumenthal......................................    79
    Hon. Maria Cantwell..........................................    79
    Hon. Catherine Cortez Masto..................................    87
    Hon. John Hoeven.............................................    77
    Hon. Tom Udall...............................................    82
Letters submitted for the record 



 
     NOMINATION OF TARA MAC LEAN SWEENEY OF ALASKA TO BE ASSISTANT 
       SECRETARY, INDIAN AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR

                              ----------                              


                         WEDNESDAY, MAY 9, 2018


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 4:10 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Hoeven, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. Good afternoon. I call this nomination 
hearing to order.
    Today, the Committee will hear from Ms. Tara Mac Lean 
Sweeney of Alaska, who has been nominated to be the Assistant 
Secretary for Indian Affairs in the Department of the Interior.
    Welcome. Thank you for being here today. We appreciate it 
so much.
    The Assistant Secretary for Indian Affairs leads Interior's 
initiatives across Indian Country. On October 17, 2017, 
President Donald Trump nominated Ms. Sweeney to the position.
    Ms. Sweeney grew up in rural Alaska and is a member of the 
Native Village of Barrow. I have been there along with Senator 
Murkowski, a great trip. She is also a member of the Inupiat 
Community of the Arctic Slope. If confirmed, she would be the 
first Alaska Native and second woman to hold the position.
    Actively engaged in State and national policy development, 
Ms. Sweeney has been involved in responsible Indian energy 
policy initiatives, rural broadband connectivity, Arctic 
growth, and Native American self-determination.
    She has served her Arctic Slope Regional Corporation and 
its subsidiaries in a variety of capacities for nearly two 
decades. The $2.6 billion corporation is the largest locally-
owned and operated business in Alaska, with about 13,000 In 
6upiat Eskimo members and 12,000 employees worldwide.
    It is diversified in six major business sectors, including 
energy support services, industrial services, construction, 
petroleum refining and marketing, government services, and 
resource development.
    In her current role as the Executive Vice President of 
External Affairs, Ms. Sweeney is the official company 
spokesperson, responsible for all facets of government affairs 
and corporate communications. Her primary responsibilities 
include strategic policy and position development, 
implementation, and execution.
    She also manages Federal and State engagement to improve 
policies affecting Indian energy, taxation, resource 
development, government contracting, broadband development and 
access to capital.
    Ms. Sweeney has served in leadership positions on numerous 
business and nonprofit boards at both the local and national 
level. She has served as chair of the Arctic Economic Council, 
co-chair of the Alaska Federation of Natives, a member of the 
Coast Guard Foundation Board of Trustees, and a member of the 
Cherokee Nation New Market Tax Credit Advisory Board.
    There have been several letters of support for Ms. 
Sweeney's nomination and I have made them all part of the 
record.
    I understand her tribal leaders are not able to join us 
today as they are busy in their whaling season, but they also 
send their support for Ms. Sweeney's nomination.
    With that, I will turn to Vice Chairman Udall for his 
opening statement.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you so much, Mr. Chairman Hoeven. We 
really appreciate your holding this nomination hearing today.
    Congratulations to Ms. Sweeney on being nominated to serve 
as the Assistant Secretary for Indian Affairs at the Department 
of Interior. I understand you brought your family with you and 
probably the majority of Barrow, Alaska.
    I also see you are accompanied by Catherine Stevens whose 
husband was a colleague of ours here in Washington for many, 
many years.
    Thank you for the meeting in my office. You met with me and 
my Indian Affairs staff and I very much enjoyed that meeting.
    This is an important nomination. The Department's Indian 
Affairs hallway has been empty for quite some time, lacking the 
top political leadership your nomination reflects and that 
Indian Country deserves.
    I am encouraged that the President chose you, Ms. Sweeney, 
a Native American nominee with business experience and deep 
connection to your tribal community. I welcome the opportunity 
today to learn about your priorities as Assistant Secretary, if 
confirmed.
    From my vantage point, the primary purpose of this hearing 
is to hear how you plan to carry out the department's mission 
to make sure the Secretary fulfills the United States trust 
responsibility to American Indian and Alaska Native tribes and 
villages and maintains the Federal-tribal government-to-
government relationship.
    The Assistant Secretary for Indian Affairs has many 
critical responsibilities. In my own role as Vice Chairman of 
this Committee and as the elected representative of 23 tribes 
in my home State of New Mexico, I have used three guiding 
principles.
    They are: respect tribal sovereignty, promote tribal self-
determination and ensure that meaningful government-to-
government consultation happens. I strongly believe that in 
word and deed, anyone confirmed to the position of Assistant 
Secretary must be guided by these same principles.
    The Assistant Secretary must also have a strong partnership 
with this Committee and be an effective advocate and ambassador 
to all of Congress for Indian Country's priorities. In my 
questions today, I will seek to confirm that you are up to the 
challenge of meeting these responsibilities.
    I also hope to get added assurances regarding your ethics 
agreement and your willingness to take on the issues that 
require balancing Indian Country's best interests with those of 
the Administration.
    Thank you, Ms. Sweeney, for answering the call to serve. I 
look forward to your testimony today. I hope to work with my 
colleagues to move your nomination along in a timely manner.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you, Vice Chairman Udall.
    I will turn to Senator Murkowski.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman and Vice 
Chairman Udall, for scheduling this hearing. I know there was a 
bit of a timing issue but I certainly appreciate it. I know the 
many, many Alaskans who have traveled to be here to be with 
Tara today appreciate that we were able to schedule for this 
afternoon.
    I want to extend my congratulations and of course my full 
support to Tara Sweeney for the position for which she has been 
nominated as Assistant Secretary for Indian Affairs at the 
Department of Interior.
    I have to tell you, sitting here, seeing you at the table 
with Senator Sullivan, seeing Catherine in the audience, seeing 
your family, and so many friends, I am bursting with pride. I 
feel this is graduation day, a birthday or a holiday.
    You, Tara, hold so much hope and promise, not only for the 
people in your region, Alaska Natives around our State, but for 
Indian Country as a whole, a strong, strong female, Native 
leader ready to take charge. Believe me, we need someone to 
take charge within the BIA. You know that.
    This position, as noted, is so important to advocate and 
ensure that Interior fulfills its Federal trust responsibility 
to the American Indian and the Native Alaska people and our 
Native Hawaiians.
    This requires a deep understanding of tribal sovereignty 
and self-determination, the significance of the trust 
relationship and meaningful consultation, as well as the 
Federal Government's fiduciary responsibility to tribes.
    You do understand all of these. You do because you have 
lived it but you have also led in this previously as the co-
chair of the Alaska Federation of Natives. To my colleagues on 
the Committee, this is the largest State-wide Native 
organization in Alaska, representing over 300 Alaska Native 
tribes, corporations and tribal consortia. It is basically one-
fourth of all the federally-recognized tribes when you keep in 
mind what AFN is.
    You were able, as co-chair, to knit together all the very 
diverse interests, the collaboration with tribes and local, 
State and Federal leaders to make meaningful and measurable 
impact on Native communities. In your efforts, I think you 
worked to be inclusive and transparent in bringing together the 
many differing opinions.
    You have a sense of purpose, determination and an ability 
to work collaboratively to improve the common goal of bettering 
the lives of our Native people.
    You demonstrated that at an even higher level with your 
role on the Arctic Economic Council. Again, that was a 
leadership position that Alaskans looked with awe at how you 
had assumed command in an international forum and venues with 
other nations to bring economic development and prosperity in 
regions that are challenged.
    You bring a very unique skill set to this position, drawing 
from your background and your upbringing. I have seen you 
personally advocate for Alaska Native rights, cultural values 
and sustainable rural communities.
    I say all that and it looks like part of a resume but I 
think we know the mark of an individual is often seen in their 
family and how they share their leadership as transmitted 
through the families surrounding them, those that support you 
and those you support.
    You have demonstrated a love and care you see transmitted 
through your children in a beautiful way that we also 
celebrate. As much as your professional accomplishments, how 
you have brought beautiful young people into the world who are 
leaders in their own right, is greatly appreciated. What you 
and Kevin have built is a model and we share that.
    Mr. Chairman, I am delighted to be able to be here to not 
only recognize the accomplishments of Tara Sweeney but to stand 
with her throughout this process. This is an important step by 
the Administration.
    I look forward to working with my colleagues to make 
history by confirming the first Alaska Native person to this 
position. I am so pleased you are here.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Murkowski.
    Senator Tester.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman and Ranking Member 
Udall, for having this hearing.
    Tara, welcome. We appreciate you putting yourself through 
this process. I understand, by Senator Sullivan's description, 
you have been at it a while already.
    This is a very important position for our Native American 
people. It is a situation where we have suicide rates that are 
over the top, spousal abuse that is totally unacceptable, and 
poverty conditions that are third world status.
    You are going to be overseeing a lot of this stuff, whether 
it is education, health care, land into trust, or making sure 
water compacts are pushed through. You are going to have an 
influence on that.
    I did ask Senator Sullivan today about you, if you were 
tough. He said you were. We are going to need somebody who is 
tough. I am going to tell you why.
    There have been a lot of good people who served in this 
position. They have come before this Committee and we have 
asked them for things in their budget, it if was adequate, and 
they always say yes.
    However, I can tell you I have a couple tribal members from 
Montana in the crowd who talked to me this morning. Do you know 
what they talked to me about? They talked about law 
enforcement. They do not have anyone on the ground and BIA has 
not been able to help them.
    I want you to fight for a budget that works for Indian 
Country so that when you come before this Committee or the 
Appropriations Committee, either one, you can say, this is what 
we need. If you want to carry out our trust obligation to 
Indian Country, this is what we need. If you do that, you are 
going to do a great job.
    Thank you.
    The Chairman. Senator Heitkamp.

               STATEMENT OF HON. HEIDI HEITKAMP, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. Thank you, Mr. Chairman.
    I have another commitment so I will not be able to be here. 
We had a lovely conversation.
    I want to back up what Jon just said. You know we have 
trouble and you know we have not felt there was enough 
attention at BIA to these issues and not enough collaboration 
with law enforcement, HUD, or HHS. These are challenges. We are 
going to look to you to solve these problems or to at least 
give us a leg forward.
    I think your background is excellent. I think there are 
some challenges people feel in terms of Alaska Natives but I 
think we are all in the same boat together. We want to make 
sure that you appreciate that there are a lot of folks in the 
Great Plains who have a different legal arrangement and 
different tribal and treaty arrangement.
    I know you are up to the task of understanding and 
appreciating these differences but we are going to hold you 
accountable in a way that I do not think we have done in the 
past. We are here to help you. We are here to be an extension 
of that advocacy. We are here to help you be successful but we 
cannot help you be successful if you do not reach out.
    I want you to know how grateful I am that you are using 
your enormous talents to tackle one of the biggest challenges 
there is in the Federal Government. That is providing services 
to some of the most forgotten people in America.
    Thank you and thanks to the great State of Alaska for 
advancing a very capable and qualified candidate.
    The Chairman. Ms. Sweeney, did you bring a Marine guard or 
is he here for the purpose of an introduction? I will now turn 
to Senator Dan Sullivan also from Alaska for the purpose of 
introducing the nominee.

                STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. It is both but I am here to introduce 
her.
    Mr. Chairman and Vice Chairman Udall, thank you very much 
for the opportunity to say a few words on behalf of this very 
well-qualified nominee before you and dear friend of mine, Tara 
Sweeney, who as Senator Murkowski mentioned, is making history 
in many ways as the first Alaska Native to be nominated for 
this very important position.
    I know that Tara's Inupiat culture often values the 
collective success of their vast community over individual 
success, something I think all of us could learn from, 
nevertheless, I would like to spend a few minutes talking about 
Tara's individual characteristics that are so important for 
someone nominated to a position of public trust like this.
    These are characteristics of integrity, intelligence, 
humility, and yes, to Senator Tester's question to me this 
morning on the Floor, certainly toughness, discipline and an 
absolute determination to work for her people, her State and 
her Country.
    I have had the privilege of knowing Tara for a long time. 
Through her and my wife, Julie, I have also had the privilege 
of learning and knowing more and more about Tara's culture, her 
people, the great history of Alaska's Native people who make up 
almost one-fifth of the population of our great State.
    Tara is a proud Inupiat whose family is from Utqiagvik 
where right now, as you mentioned, Mr. Chairman, in her home 
village and villages across northwest Alaska, the citizens are 
in the throes of spring whaling season, an ancient tradition 
that feeds the body and soul of Native communities throughout 
the area.
    Amazingly, today's Alaska Native whaling captains and crews 
still hunt using hand-held harpoons and going to the icy waters 
in hand-skin boats as their ancestors did for thousands of 
years. It is this kind of fidelity to Native culture that I 
think really defines Tara. It is in her heart and her soul.
    It is also the ability to marry traditional cultures with 
the modern world, sometimes against long odds that is an 
enormously important part of Tara and a very important part of 
the wonderful and powerful narrative of her people.
    Mr. Chairman, I would like to say a few words about the 
Alaska Federation of Natives, the largest Alaska Native 
organization in a State encompassing 229 federally-recognized 
tribes as well as 150 village corporations, 12 regional 
corporations and 12 regional nonprofit and tribal consortia. It 
is certainly one of the most well respected organizations in 
all of Alaska.
    The history of AFN, as we call it, formed half a century 
ago, is one of the great stories in a State full of great 
stories of Brave men and women from all across the State who 
fought for their land and self-determination and won.
    This was not easy. They were demanding that the Federal 
Government recognize their rights to nearly 150 million acres 
of land at a time when Alaska Native villages were severely 
impoverished and disease ran rampant. They enacted the largest 
land claims settlement Act in history, and continue to fight 
for their people, their culture and for all of us in Alaska and 
indeed, across the Country.
    Tara grew up in this history and story. Her relatives were 
involved. Her village leaders played a decisive role. This is a 
crucial part of her legacy. When she became old enough and 
experienced enough, she ran for and was elected to be co-chair 
of AFN, a remarkable achievement that, in my view alone, 
qualifies her for this very important position.
    During her time leading AFN, she spearheaded reforms to 
empower tribes, focused on issues like access to capital, self-
determination, technology deployment and very critically, 
economic growth and good jobs in rural Alaska Native 
communities, some of the poorest communities in our Nation.
    These are some of the critical issues she also focused on 
in her many other leadership positions in organizations such as 
Arctic Slope Regional Corporation, the Inuit Circumpolar 
Conference, the National Conference of American Indians and as 
chair of the Arctic Economic Council.
    This is the experience and focus she will bring to all 
indigenous people throughout our Country. I am absolutely 
certain there is no one who will work harder for the rights, 
for the economic empowerment and for the culture of America's 
first people than Tara Sweeney.
    Finally, in conclusion, as we all know we are coming up on 
Mother's Day this Sunday. Tara's late mother, Eileen Mac Lean, 
was a legend. Like her mother before her, Tara's Akamai, she 
was a strong Alaska Native Leader who was respected throughout 
our State.
    She was a teacher, the president of the Inuit Circumpolar 
Council and a well respected Alaska State legislator from 
District 40. Eileen's legacy lives on throughout our State. If 
confirmed, that legacy will live throughout our Nation through 
her very well-qualified daughter, Tara.
    Tara, Alaska is very proud of you. We are all thrilled by 
your nomination. Quiana for being willing to serve our Country. 
I am confident that my Senate colleagues will respect and honor 
your achievement, experience, integrity and deep cultural 
commitments that make you an ideal nominee for this very 
important position.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Sullivan.
    We will now swear in the witness.
    Ms. Sweeney, please rise and raise your right hand. Do you 
solemnly affirm that the testimony you shall give today shall 
be the truth, the whole truth and nothing but the truth under 
the penalty of perjury?
    Ms. Sweeney. I do.
    The Chairman. Thank you. Please be seated.
    I want to remind you that your full written testimony will 
be made a part of the official record. I would say take five 
minutes or so but you can give or take. This is your chance to 
present as you wish.
    I know you have family and friends here if you want to 
introduce some of them, feel free to do that.
    Welcome.

  STATEMENT OF TARA MAC LEAN SWEENEY, NOMINEE TO BE ASSISTANT 
   SECRETARY, INDIAN AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR

    Ms. Sweeney. Thank you, Chairman Hoeven, Vice Chairman 
Udall and distinguished members of the Committee.
    [Greeting in Native language.]
    Ms. Sweeney. My name is Tara Mac Lean Sweeney. I am from 
Utqiagvik and I am honored to be here today as you consider my 
nomination to be Assistant Secretary of Indian Affairs at the 
Department of Interior.
    I do have a number of family members here that would take 
up almost the entire hearing time if I introduced everyone. I 
would like to recognize a few of those members here today.
    You have a room full of Inupiaq Eskimos, so I appreciate 
the staff keeping this room nice and cool because it is very 
warm for the rest of us. I can tell you this Eskimo is melting.
    Left to right, I would like to acknowledge Oliver Leavitt, 
my mentor. I explained earlier when I was 12 years old 
attending elementary school, shortly after the land claims had 
passed and was enacted and Alaskans were familiarizing 
themselves with the land claims and what a corporate structure 
would look like in our region, Oliver came into our classroom 
to talk to us about the opportunities ANCSA could bring and the 
potential for students like myself to realize by going to work 
for my Alaska Native corporation.
    As he left the building, I looked over to my friends, 
including his son, and said I want to work there. I want to 
work for him. I want to do what he is doing for our people. 
From that time, I worked very hard under his tutelage to get to 
where I am today.
    I would be remiss without acknowledging his importance in 
my life and to our region and community. Oliver Leavitt is 
sitting here at the edge of the row.
    Next to him is my cousin, Richard Glenn. We have worked 
this journey on a professional level together. Richard Glenn, 
many of you may know for his involvement in the work with 
Arctic Slope Regional Corporation.
    We have spent so much time together working on issues 
important to Alaska and our region. I could not be sitting here 
in front of you without him walking with me and me walking with 
him in our professional journey.
    Next to Richard is my stepfather, George Weckerle. I say he 
is from Barrow. He currently lives in upstate New York but I am 
certainly glad that he was able to make the drive to be with us 
today.
    Next to George is my son, Ahmaogak Sweeney, who is 18 and a 
senior at South Anchorage High School. Thank you for holding 
the hearing this early in May because next week is graduation 
and he will be graduating, so I am excited. He is also a pilot 
and will be pursuing aviation as a career.
    Next to Ahmaogak is my daughter Caitlin, a junior at 
Cornell in the business school there. She recently returned to 
the United States from overseas abroad for the semester in 
Rome. She arrived yesterday. I am extremely excited she has 
been able to join us.
    Finally is my husband, Kevin, my life partner, the love of 
my life and one of my biggest supporters. We have been married 
for over 20 years. I am very thankful for the support my family 
has given to me throughout this process.
    If you know Native families, you know that aunties play a 
major role in your lives so I would be remiss if I did not say 
hello online to my aunt, Kannik Glenn and Marilyn Gamboa.
    [Greeting in Native language.]
    Thank you.
    I am an Inupiaq Eskimo from Alaska's North Slope, raised in 
the era following congressional enactment of the Alaska Native 
Claims Settlement Act of 1971. As this Committee is aware, 
ANCSA was essentially an experiment by our Federal Government 
on how best to address the needs of Alaska Native people that 
pre-existed the United States Constitution.
    ANCSA eliminated the seven reservations in Alaska at the 
time, one of which was located in my hometown of Utqiagvik, and 
replaced them with a historic land claims settlement that 
deeded 12 percent of Alaska's lands in fee simple title to be 
held by Native corporations.
    As you know, the more than 200 Alaska Native Corporations 
created by Congress exist side by side but are autonomous from 
the more than 200 federally-recognized tribal governments in 
Alaska.
    I was raised in rural Alaska, educated at Cornell 
University, mentored and employed during this post-ANCSA era. I 
have witnessed our village leadership focus their efforts on 
the corporate structures Congress created, while trying to 
balance the sovereignty and the role of our tribal 
organizations for the well-being of the Inupiaq people.
    As Alaska Natives, like our American Indian counterparts, 
we are reaching for the same future, with very similar tools, 
tribal governments to govern our respective social needs and 
traditional and cultural ways, and tribal corporations, to 
engage in the economic opportunities of our great Country.
    This reality has meant, and still means, that the 
Department of the Interior is very much a part of our past, our 
lives today, and will be in the future of the generations yet 
unborn. The DOI is a reality with which every Native American 
lives. I am honored to leave my homeland for a short time to 
engage in public service, but perhaps most important, to 
support tribal nations, tribal corporations and our tribal 
people across the Country.
    The mission of Indian Affairs at DOI is ``to engage in a 
robust government-to-government relationship with federally-
recognized Indian Nations and to collaborate with Indian 
organizations and corporations to support socially, culturally 
and economically self-sufficient Indian peoples.''
    Members of the Committee, this mission statement is one 
that both Secretary Zinke and I believe in. With the 
Administration's support, I would like to bring the vast talent 
of Native leaders around the Country to help move our 
collective tribal and corporate interests forward.
    I am both a product and a witness to the work of Native 
leaders to address the challenges that each of our communities 
face, including social services to protect our most vulnerable, 
the perpetuation of our languages and cultural practices, 
investments in education, housing and other infrastructure, and 
capacity building to develop economic opportunities at home and 
across the Country.
    My life experiences throughout rural Alaska positioned me 
to watch our community leaders overhaul the Bureau of Indian 
Affairs school in my village. Previously, this school had only 
served my mother's generation through the 8th grade.
    Native leadership led the conversion of the school to a 
pre-K through 12th grade school system with a local school 
board. This act of courage and partnership with the DOI changed 
the trajectory of every generation that followed. Students no 
longer had to leave home 10 months of every year to achieve a 
high school diploma. I am a product of this change.
    Today, we have a locally-governed school district, and we 
also successfully operate the only accredited tribal college in 
Alaska, providing degrees in higher education and vocational 
skills to our young adults.
    The Arctic is the most remote region in the United States. 
No roads connect our communities, the cost of living is 
extremely high, our people face significant social challenges 
and our region is plagued with insufficient sanitation 
facilities. Unfortunately, this is akin to the realities faced 
throughout the rest of Indian Country.
    To address these needs, our people have been proactive in 
accessing the resources of bond markets, local taxing 
authority, and business investments. The work is far from done. 
We continue to push forward.
    I will utilize that same solutions-oriented perspective to 
serve all of Indian Country. I understand that the collective 
knowledge of our tribal leaders must be my top priority to 
serve the mission of Indian Affairs at the Department of the 
Interior.
    With that in mind, if confirmed, I plan to spend my first 
180 days listening to tribal leaders and the congressional 
committees of jurisdiction to hear the top priorities and 
establish a clear and comprehensive action plan.
    As a Native impacted by DOI, I understand that one 
appointment, my appointment, is not a universal remedy. 
However, for improved and effective service delivery, Indian 
Country needs a clear framework from the department, grounded 
in tribal consultation.
    This engagement will give my tenure as Assistant Secretary 
the clear vision that is needed to advance the priorities of 
Interior and our tribal nations. I expect these consultations 
will produce a myriad of priorities.
    Across this great Country, from the southwest to the 
northeast, one cannot paint Indian Country with a single 
stroke. Indian Country is not a homogenous community. There are 
some stark and subtle differences that make each tribe unique.
    I have great familiarity with energy development, 
education, housing, telecommunications, and business 
development issues, particularly within the context of rural 
and geographical isolation.
    However, others will be new to me. As I have been taught by 
my elders when taking on new ventures, in order to achieve 
success I must be guided by the principles focused on humility 
to hear, to be taught, to contemplate and to act.
    In closing, during any tenure this body may grant me, I 
fully intend to make decisions in consultation, and to act on 
the best ideas that move Indian Affairs and the decision making 
of tribes forward, not backwards.
    Should I be confirmed, your guidance and expertise will be 
both expected and appreciated. Quyanaqpak. Thank you for the 
opportunity to come before this Committee today. I am happy to 
answer any questions you may have.
    [The prepared statement and biographical information of Ms. 
Sweeney follow:]

 Prepared Statement of Tara Mac Lean Sweeney, Nominee to be Assistant 
       Secretary, Indian Affairs, U.S. Department of the Interior
    Chairman Hoeven, Vice Chairman Udall, and distinguished members of 
the Committee. My name is Tara Sweeney, and I am honored to be here 
today as you consider my nomination to be Assistant Secretary of Indian 
Affairs at the Department of the Interior.
    I am an Inupiaq Eskimo from Alaska's North Slope, raised in the era 
following congressional enactment of the Alaska Native Claims 
Settlement Act of 1971 (ANCSA). As this Committee is aware, ANCSA was 
essentially an experiment by our Federal Government, to address the age 
old question of how best to address the needs of America's Native 
people that pre-existed the United States Constitution. ANCSA 
eliminated the 7 reservations in Alaska at the time, one of which was 
located in my hometown of Utqiagvik, and replaced them with a historic 
land claims settlement that deeded 12 percent of Alaska's lands in fee 
simple title to be held by Native corporations. As you know, the more 
than 200 Alaska Native Corporations created by Congress exist side by 
side but are autonomous from the more than 200 federally recognized 
tribal governments in Alaska.
    I was raised in rural Alaska, educated at Cornell University, 
mentored and employed during this post-ANCSA era. I have witnessed our 
village leadership, including my own mother and others, focus their 
efforts on the corporate structures Congress created, while trying to 
balance the sovereignty and the role of our tribal organizations for 
the well-being of the Inupiaq people.
    As Alaska Natives, like our American Indian counterparts, we are 
reaching for the same future, with very similar tools--tribal 
governments to govern our respective social needs and traditional and 
cultural ways, and tribal corporations, to engage in the economic 
opportunities of our great country.
    This reality has meant, and still means, that the Department of the 
Interior is very much a part of our past, our lives today, and will be 
in the future of the generations yet born. The DOI is a reality with 
which every Native American lives. I am honored to leave my homeland 
for a short time to engage in public service, but perhaps most 
important, to support tribal nations, tribal corporations, and our 
tribal people all across the country.
    The mission of Indian Affairs at DOI is ``to engage in a robust 
government-to-government relationship with federally recognized Indian 
Nations and to collaborate with Indian organizations and corporations 
to support socially, culturally and economically self-sufficient Indian 
peoples''.
    Members of the Committee, this mission statement is one that both 
Secretary Zinke and I believe in. With the administration's support, I 
would like to bring the vast talent of Native leaders around the 
country to help move our collective tribal and corporate interests 
forward.
    I am both a product and a witness to the work of Native leaders to 
address the challenges that each of our communities face--including 
social services to protect our most vulnerable, the perpetuation of our 
languages and cultural practices, investments in education, housing and 
other infrastructure, and capacity building to develop economic 
opportunities at home and across the country.
    My life experiences throughout rural Alaska positioned me to watch 
our community leaders overhaul the Bureau of Indian Affairs school in 
my village. Previously, this school had only served my mother's 
generation through the 8th grade. Native leadership led the conversion 
of the school to a pre-K through 12th grade school system with a local 
school board. This act of courage and partnership with the DOI changed 
the trajectory of every generation that followed. Students no longer 
had to leave home 10 months of every year to achieve a high school 
diploma. Today, we have a locally governed school district, and we also 
successfully operate the only accredited tribal college in Alaska, 
providing degrees in higher education and vocational skills to our 
young adults.
    The Arctic is the most remote region in the United States. No roads 
connect our communities, the cost of living is extremely high, our 
people face significant social challenges and our region is plagued 
with insufficient sanitation facilities. Unfortunately, this is akin to 
the realities faced throughout the rest of Indian Country. To address 
these needs, we accessed the resources of bond markets, local taxing 
authority, and business investments to build a city water and sewer 
system, a system that most Americans take for granted. The work is far 
from done but we continue to push solutions forward. I will utilize 
that same solutions-oriented perspective to serve all of Indian 
Country.
    My expertise is in business, government relations, and policy 
development that facilitates good business practices. However, business 
is but one facet of the well-being of Native peoples. It is one tool 
that is intricately connected to our social and cultural well-being. I 
know that the collective knowledge of our tribal leaders must be my top 
priority to serve the mission of Indian Affairs and Tribal Nations.
    With that in mind, if confirmed, I plan to spend my first 180 days 
listening to tribal leaders and the Congressional Committees of 
jurisdiction to hear the top priorities and establish a clear and 
comprehensive Action Plan.
    As a Native impacted by DOI, I understand that one appointment, my 
appointment, is not a universal remedy. However, for improved and 
effective service delivery, Indian Country needs a clear framework from 
the Department, grounded in tribal consultation. This engagement will 
give my tenure as Assistant Secretary the clear vision that is needed 
to advance the priorities of Interior and our tribal nations.
    I expect these consultations will produce a myriad of priorities. 
Across this great country, from the southwest to the northeast, one 
cannot paint Indian country with a single stroke. Indian country is not 
a homogenous community. There are some stark and subtle differences 
that make each tribe unique. I have great familiarity with energy 
development, education, housing, telecommunications, and business 
development issues, particularly within the context of rural and 
geographical isolation; however, others will be new to me. As I have 
been taught by my elders when taking on new ventures, in order to 
achieve success I must be guided by the principles focused on a 
humility to hear, to be taught, to contemplate and to act.
    In closing, during any tenure this body may grant me, I fully 
intend to make decisions in consultation, and to act on the best ideas 
that moves Indian Affairs and the decision making of tribes forward, 
not backwards. Should I be confirmed, your guidance and expertise will 
be both expected and appreciated.
    Quyanaqpak. Thank you for the opportunity to come before this 
Committee. I am happy to answer any questions you may have for me 
today.
                                 ______
                                 
                                 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 
G. FINANCIAL DATA
    Information not released to the public.

    The Chairman. Thank you, Ms. Sweeney.
    We will begin questioning with five-minute rounds of 
questions.
    The President's budget request for fiscal 2019 proposes 
creating an $18 billion public lands infrastructure fund. Money 
in the fund would be used to address repairs and improvements 
for BIA schools as well as national parks and national wildlife 
refuges.
    If confirmed, how would you use available resources to 
repair and improve BIE schools?
    Ms. Sweeney. Thank you for the question, Chairman Hoeven.
    While I have not been involved in the discussions about 
infrastructure or funding discussions inside the department, 
when you look at the state of the Bureau of Indian Education's 
schools, there certainly is a lot of work that needs to be 
done.
    In my first 180 days, my intention is to take a very 
disciplined approach to working with Indian Country, to answer 
your question, and engaging first and foremost in consultation 
with tribes.
    The Chairman. How about opioids? Obviously it is a problem 
everywhere. What are your thoughts on how we combat the opioid 
problem in Indian Country?
    Ms. Sweeney. Whether it is methamphetamines or opioids, it 
is an epidemic in Indian Country. Everyone sitting in this room 
and people in Indian Country, there is no one untouched by this 
epidemic. It is a very serious epidemic impacting our 
communities.
    My intention is to learn from tribal leaders, tribal 
nations and Indian Country through consultation about what will 
serve their communities best. In my opening statement, I said 
Indian Country is not a homogenous community. What may work in 
the southwest may or may not work in the Plains, Alaska or in 
the Northwest.
    First and foremost, working with Indian Country to 
understand what works in their region certainly will be a 
priority for me.
    The Chairman. I agree with you on that point. One of the 
things I have been struck by in my time as Chair of this 
Committee is the incredible diversity in Indian Country. It is 
just amazing. Some reservations are very rural, some are urban 
but the differences out there are incredible. You are right, 
one size does not fit all. I think that is a very important 
point.
    Another issue we are very concerned about is child safety. 
As a matter of fact, I introduced legislation which we passed 
in 2016, the Native American Children's Safety Act. It really 
goes to making sure we have background checks in foster care 
homes and those kinds of things.
    How do you make sure we not only fully implement 
legislation like that? Talk to me about what we can do on 
behalf of children's safety.
    Ms. Sweeney. Thank you again for that question.
    With respect to child safety and the Act you referenced, I 
am concerned there are barriers to entry for our Native 
children in meeting the intent of the legislation you have 
proposed. By that, I mean I am concerned that tribal entities 
do not have the appropriate resources necessary to ensure 
children are being placed in appropriate homes if a background 
cannot be conducted. That is extremely concerning to me.
    I would tackle that with my private sector experience by 
working with the Department of Justice and other departments of 
jurisdiction to address child safety issues. While we may not 
be the experts inside of the Department of the Interior, there 
are other experts throughout the Administration with which we 
can build partnerships, leverage resources and work to tackle 
this issue in partnership with this Committee.
    The Chairman. Another area under HHS, even though it does 
not come under your jurisdiction, is the Indian Health Service. 
Again, any help you can provide is very important in terms of 
not only protecting children, families and women, but also 
their health care and health needs. It is certainly an area in 
which you will need to collaborate as well in this position.
    Vice Chairman Udall?
    Senator Udall. Thank you, Mr. Chairman.
    Ms. Sweeney, thank you for recently meeting with me to 
discuss your nomination. As you may recall, we discussed the 
importance of transparency and impartiality in your role as the 
Assistant Secretary, if confirmed.
    Since you possess birthright shares in the Arctic Slope 
Regional Corporation, you promised me that you would ``totally 
recuse yourself from any matter involving ASRC'' so that you 
could avoid any conflicts of interest. That recusal includes 
oil and gas development in the Arctic National Wildlife Refuge.
    Will you honor that promise of recusal that you made to me?
    Ms. Sweeney. Thank you for raising that issue, Vice 
Chairman Udall. I did appreciate the time that we spent 
together in your office and with your staff.
    With respect to my ethics pledge, I have pledged to recuse 
myself from any matters regarding Arctic Slope Regional 
Corporation. I would have done that regardless of the pledge 
because it is the right thing to do. To answer your question, 
yes.
    Senator Udall. Will you recuse yourself from any matter 
that may benefit ASRC, including oil and gas development in the 
Arctic National Wildlife Refuge?
    Ms. Sweeney. My ethics pledge requires me to recuse myself 
from all matters pertaining to ASRC and I will adhere to that, 
yes.
    Senator Udall. Thank you.
    Ms. Sweeney, I come from an oil and gas producing State, so 
I understand the importance of oil and gas development for jobs 
and the economy. However, I also understand the importance of 
recognizing when an area is simply too important to develop, 
whether it be for preserving cultural heritage or protecting 
sensitive ecology.
    I believe responsible drilling and cultural preservation 
are not mutually exclusive. In New Mexico, for example, we have 
an area known as Chaco Canyon, a truly magnificent home to 
ancient ruins, petroglyphs and other archaeological treasures 
prized by many of the tribes in the southwest that maintain a 
strong spiritual relationship to the land. However, Chaco is 
also located in one of the most productive oil and gas regions 
in the Country.
    Do you believe there are places so important that natural 
resources development, like oil and gas, should be off limits?
    Ms. Sweeney. With respect to my nomination and the role of 
Assistant Secretary for Indian Affairs, I believe in self-
determination. Working with tribal leaders and working with 
Indian Country on their priorities is something important to 
me.
    I want to work with tribes, and if they are choosing to 
develop their resources, whether extractive or renewable, my 
role as Assistant Secretary, if confirmed, is to ensure tribes 
have the tools necessary to exercise their right to full self-
determination.
    Senator Udall. If confirmed, do I have your support to work 
with me and my staff with respect to Chaco Canyon and the 
concerns that tribes have there?
    Ms. Sweeney. Yes.
    Senator Udall. Looking from the outside, it appears that 
Indian Affairs within Interior is in complete disarray. The BIA 
director just resigned under a cloud of suspicion. Eight out of 
the 12 regional directors in the BIA are temporary.
    I have also just learned that Interior will replace the 
Navajo Nation's long-time regional director with a D.C. 
employee who has no connection to the Navajo community.
    What will you do to stabilize the department and the Indian 
Affairs team in these uncertain and turbulent times?
    Ms. Sweeney. While I cannot speak to any of the personnel 
or human resource type of activity taking place within the 
department today, best practices in the private industry and 
what I would bring to the department would be a very 
disciplined approach to management, one where within the first 
180 days, I intend to sit down with department staff to 
understand the challenges in the department and understand what 
issues we face with respect to personnel management.
    How can we fill those gaps? How can we ensure the employees 
within the department are staying true to the mission? Put 
politics aside, Indian Affairs is the department of self-
determination.
    I am committed to upholding the trust responsibility to 
Indian Country, to ensuring the Federal Government is, in fact, 
fulfilling that responsibility and advocating for that in the 
Administration.
    In order to ensure that we have a very strong workforce, it 
is important to create that alignment in the department. I want 
people who are committed to the mission working for Indian 
Affairs.
    Senator Udall. Thank you for that answer.
    Thank you, Mr. Chairman.
    The Chairman. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Thank you, Tara, for being here, your willingness to serve 
and that of your family. Because it is family service, we 
appreciate that.
    I want to follow up on the comments the Vice Chairman just 
made about some of the issues within the agency itself, within 
the BIA. It is really disconcerting to see the news reports 
that this individual just resigned, stepped down, or was fired, 
but then further, to learn you had investigations going on that 
speak to, allegedly, widespread harassment problems within the 
Bureau of Indian Affairs.
    I think it goes to the challenge, the charge that you heard 
from both Senators Tester and Heitkamp. You are walking into an 
agency that has lacked leadership and discipline that you just 
committed to bring.
    It is discipline in management, working with personnel to 
understand they take with the same fierce determination you 
have just articulated what the mission is. We really do need 
you to shake it up. I have confidence in you and know you to be 
one who is not afraid to shake it up, make some waves, and to 
do the right thing for the right reasons.
    As I have talked to colleagues about you and your 
background, one of the things I have heard is they seem a 
little bit uncertain. I am such an unabashed proponent of the 
fact this will be the first Alaska Native woman nominated to 
this position. But they are a little worried that you might be 
too Alaska-centric, that you do not have that breadth of 
understanding with regard to tribes in the lower 48.
    Can you speak to that part of your portfolio, your skill 
set, and give my colleagues assurance that you will be the 
Assistant Secretary for BIA and all of Indian Country, 
including our Alaska Native peoples?
    Ms. Sweeney. Thank you for your question.
    Senator Murkowski, when you remove geography from the 
equation, the social issues that Alaska Natives, American 
Indians and Native Hawaiians face are the same. I come from a 
region that has 638 compacting to deliver health care. I come 
from a region that has a regional tribal housing authority. I 
come from a region that had BIA as part of our school system.
    When you look at the social issues that we face in Alaska, 
opioids and meth addiction, domestic issues, educational 
challenges, as I have worked within Indian Country and with 
Indian leaders across this Country, we are more alike than we 
are dissimilar. We have more similarities.
    For those who may feel that I am too Alaska-centric or I do 
not have lower 48 experience, I want to dispel that myth 
because I am committed to working very hard for Indian Country 
and, I would say, for Native self-determination regardless of 
geography.
    Senator Murkowski. Going beyond geography within the 
confines of our own borders, your role as the founding Chair of 
the Arctic Economic Council, building that organization from 
really nothing into this pan-Arctic organization that really 
shares best practices with regards to economic development and 
sustainability, how does that experience translate to your 
ability to guide, manage and bring about discipline within the 
Bureau of Indian Affairs?
    Ms. Sweeney. The Arctic Economic Council was certainly a 
challenge, because we had eight Arctic nations at the table and 
representatives from indigenous organizations within the 
circumpolar Arctic region. Starting with a budget of zero and 
no permanent administrative offices, we had to get to work and 
build an economic association that represented the economic 
needs of the people of the Arctic.
    The AEC is structured similarly to the Arctic Council where 
the State Department represents the United States Government. 
The chairmanship terms mirror the same terms you will find 
within the Arctic Council. They are two-year terms, much like I 
believe what would be left in this appointment here.
    During that timeframe, with the partnership of the other 
Arctic countries, we were able to negotiate with the Norwegian 
government to provide three years of initial funding for the 
administrative offices. We were able to locate permanently the 
administrative secretariat offices in Tromso, Norway.
    We were able to establish an international organization 
with protocols and rules of procedure that help govern and 
guide the discussions about economic development in the 
circumpolar Arctic.
    Taking that experience, whether it is in Alaska, through my 
private experience with the Arctic Slope Regional Corporation, 
or the international experience I have had in standing up an 
organization, I want to take that same energy, those same 
experiences and translate that into the work at Indian Affairs 
because there is so much work that needs to be done. I am up 
for that task.
    Senator Murkowski. I know you are.
    Ms. Sweeney. Thank you.
    Senator Murkowski. Thank you, Mr. Chairman.
    The Chairman. Senator Tester.
    Senator Tester. Thank you, Mr. Chairman.
    Once again, Tara, thank you for being here.
    I am going to make this very quick because in my opening 
statement, I pretty much made my points, you nodded your head a 
lot, so I like that.
    I will tell you that in the last two weeks as I was back in 
Montana, I have had two tribes approach me about law 
enforcement. That means we have a problem largely with land-
based tribes. I do not need to tell you, because you are from 
Alaska, about large land bases.
    A lot of these tribes have reservations that are bigger 
than most States. I should not say most, but a lot of the 
States on the East Coast, so it is a big deal.
    If you are confirmed, could you take a look into that to 
see what kind of resources are available to help these folks? I 
can give you a list. It is all seven tribes in Montana that 
need the help. You can start with Fort Belknap and Blackfeet.
    The only other thing I would like to add is that we have a 
tribe called the Little Shell in Montana, the Little Shell of 
Chippewa Indians. For over a generation, in fact multiple 
generations, they have been trying to receive recognition. They 
have had it and had it rescinded. It has been a mess.
    We have put pressure on Interior to do it and I would hope 
Interior would do it. We have recognized someone's tribes 
congressionally and I guess they do not have a problem doing 
that either except that it really is Interior's job.
    In a bipartisan effort, I along with Senator Daines, when 
Secretary Zinke, the Secretary of the Department of Interior, 
was a congressman, he also had a bill to have recognition. The 
governor supports it; the attorney general supports it; the 
legislature supported recognition for the Little Shell.
    I would just ask that this be on your priority list once 
you are confirmed. May I have that commitment?
    Ms. Sweeney. Senator, I understand both issues you have 
raised are very important to you. I look forward to working 
with you on them.
    Senator Tester. Absolutely. Thanks again for being here.
    Thank you, Mr. Chairman. How is that for being efficient?
    The Chairman. We gave you the same number of minutes as you 
have fingers on your left hand. It is good you did not have 
more questions.
    Senator Smith.

                 STATEMENT OF HON. TINA SMITH, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Smith. I hardly know how to follow that.
    Ms. Sweeney, it is so nice to have you here. I would like 
to thank you for your willingness to serve and for being here 
today.
    Though I hail from Minnesota, I went to high school and 
middle school in Anchorage, Alaska. I would love to have a 
chance to compare notes with you, though I think I am a bit 
older than you are.
    I would like to ask you a couple of questions. First, in my 
time with this Committee, I have heard from so many of my 
colleagues, both Democrats and Republicans, concerns about the 
budget cuts and inadequate funding of programs in Indian 
Country.
    I am so proud to be here giving voice to the 11 sovereign 
tribal nations of Minnesota but we have heard this from all 
over the Country before this Committee. Personally, I am 
worried about cuts to tribal housing programs and also the 
energy assistance programs. All of these are really needed and 
important.
    I appreciate the commitment you made in your testimony to 
upholding the Federal Government's trust and obligation to 
tribes. I would like you to talk a bit about how you would 
balance that solemn trust and obligation that you would have, 
that we have, with the need to fund the responsibilities that 
we have in Indian Country?
    Ms. Sweeney. Thank you for your question, Senator Smith.
    My management style is of transparency. I work to build 
high caliber teams. I also hold my employees accountable and 
provide the metrics for success so that, at the end of the day, 
we know what success will look like. Having measurable results 
is going to be very important to me, if confirmed.
    When you talk about balancing the needs with the funds, 
first and foremost, I want to be boots on the ground. I want to 
go out and consult with tribal leaders on what their needs are 
in terms of funding, but also the tools Indian Affairs needs to 
provide so they can exercise their right to full self-
determination.
    Senator Smith. Can you commit to working with me and others 
on this Committee to make sure you have the resources you need 
to be able to fulfill that obligation?
    Ms. Sweeney. Yes.
    Senator Smith. Thank you.
    I would like to touch on one other thing I know is also 
extremely important to others on this Committee as well. This 
has to do with the reality, as I am looking at some data, that 
more than half of American Indian and Native Alaskan women and 
more than one in four men have experienced sexual violence in 
their lifetime.
    This is a huge challenge. I hear from our tribal 
governments in Minnesota that there is this big challenge in 
terms of non-Native people committing crimes of sexual violence 
on Minnesota reservations and Indian Country all over the 
Country.
    There has just been an inability of tribal governments to 
prosecute and sometimes an unwillingness of non-tribal 
governments around reservations to prosecute, to follow up and 
hold people accountable for this.
    It is an issue of huge worry to me. Senator Murkowski and I 
are working to introduce legislation that would recognize and 
affirm an Indian tribe's inherent power to exercise their 
criminal jurisdiction over non-Indians when they commit crimes 
of sexual violence.
    I would like to know if you would be willing to work with 
us? Can you commit to working with us and the Department of 
Justice on this terrible problem?
    Ms. Sweeney. I certainly look forward to working with the 
Committee on how best to address these gaps in tribal 
authority. I am also a very strong advocate for breaking down 
silos. If I have to, in my role as Assistant Secretary, if 
confirmed, reach out to other departments, agencies or bureaus, 
I am willing to do that.
    Senator Smith. Thank you very much.
    I am out of time but I would like to have a chance to 
follow up, if I could, Chair Hoeven, on the Prairie Island 
Indian Community in Minnesota which is on an island in the 
Mississippi River.
    They have two significant issues that directly affect them. 
One is the impact of flooding caused by an Army Corps of 
Engineers dam that regularly floods their small piece of land. 
The other is the presence of a nuclear power plant with spent 
nuclear fuel within a stone's throw of where members of Prairie 
Island live.
    This is of huge concern to them. I would like the 
opportunity to have a conversation with you about that and work 
with you to find a solution to these problems.
    Ms. Sweeney. I welcome that opportunity.
    Senator Smith. Thank you very much.
    Thank you, Chair Hoeven.
    The Chairman. Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman.
    Congratulations on your nomination.
    I know I am late coming to the hearing. We were trying to 
discuss various health care issues with one of our tribal 
leaders from the Northwest.
    First of all, I think my colleague asked you about recusing 
yourself from the Arctic Slope Regional Corporation interests, 
is that right?
    Ms. Sweeney. Yes, he did.
    Senator Cantwell. Does that mean you also would not seek a 
waiver during your time in this position to ask Interior to 
waive that recusal?
    Ms. Sweeney. I have the ethics pledge I have signed. I 
worked with DOI Ethics and provided them with information about 
my entire background throughout this process. They presented me 
with this ethics pledge that I have signed and continue to 
reaffirm that with matters directly affecting or with respect 
to Arctic Slope Regional Corporation, I will recuse myself, 
yes.
    Senator Cantwell. So you would not seek a waiver from that 
later and say, in this case, I should be able to weigh in?
    Ms. Sweeney. No.
    Senator Cantwell. Thank you.
    Ms. Sweeney. I will consult with Ethics if there is even an 
appearance of a conflict. My first stop is going to be Ethics.
    Senator Cantwell. Yes, thank you, I think you answered it. 
Maybe you can follow up and put it in writing too. You could 
ask or petition to waive that later so that you could weigh in 
on something. We want to make sure you understand the question 
I am asking.
    Ms. Sweeney. I certainly do understand your question, 
Senator. I will not be seeking a waiver.
    Senator Cantwell. Thank you.
    On environmental laws, what do you think are the most 
important issues for empowering tribes to have a voice in the 
Federal system?
    Ms. Sweeney. When you look at empowering tribes or 
empowerment in Indian Country, it is about breaking down silos, 
about creating ambassadors outside of Indian Country, much like 
members of this Committee, to advocate for responsible policy 
with respect to Indian economic development, Indian 
environmental protections, safe communities, housing, and 
infrastructure.
    It is also about bringing together thought leaders and 
industry experts. First and foremost, with respect to your 
question on environmental policy in Indian Country, as 
Assistant Secretary, if confirmed, I am going out to Indian 
Country and have that tribal consultation.
    I believe decisions about me should not be made without me. 
It is important to provide that voice. The only way to get that 
perspective is by going local and working with tribal leaders.
    Senator Cantwell. I would say a lot of our Pacific 
Northwest tribes have counted on those environmental laws to 
make sure their issues on fishing rights and environmental 
issues are looked after in a government-to-government 
relationship.
    I would just hope you will give them your focus. I know the 
Interior Secretary, at large, said something similar. I am not 
seeing all the evidence of that. He had a very different 
experience in Montana as a congressman and seems to ignore some 
of these as Secretary of Interior.
    How important do you think taking land into trust is for 
Indian Country?
    Ms. Sweeney. Senator, thank you very much for your 
question.
    I want to close the loop on that last discussion and state 
for the record, Native Americans are the Aboriginal 
environmentalists of this Country. I understand the importance 
of that connection to the land and the environment because that 
also defines why I am who I am as an Inupiaq from Alaska.
    Going back to tribal consultation, the same approach 
applies when the Department of Interior, Indian Affairs, is 
looking to impact the daily lives, the policies and decisions 
that impact Indian Country, we have to, first and foremost, put 
meaningful consultation at the forefront.
    With respect to land into trust, there is a process for 
that. I am committed to working within the law. I am also 
committed to working with tribal leaders on land-into-trust 
issues.
    Senator Cantwell. Thank you.
    I know my time has expired, Mr. Chairman. I would just say 
that I think, as it relates to two big issues on development, 
the Army Corps in the Pacific Northwest definitely consulted 
with the tribe, but not so much that that happened in other 
parts of the Country on major projects.
    We look forward to having your voice on those issues and 
upholding those environmental laws that are so important for 
them to be able to participate. Thank you for your answer on 
land-into-trust. I might follow up, if I could, Mr. Chairman, 
with a written question on that just to clarify.
    We get that in your position, you are going to have people 
from different parts of Indian Country and we welcome that. We 
just want to make sure you understand the priorities that 
Indian Country has in our part of the world.
    Land-into-trust has been a very big tool, the Port of 
Tacoma and the Puyallup Tribe that worked to make that bigger 
than the Port of Seattle all because they had the ability to 
take land into trust. We want to see it continue as an economic 
development tool.
    Thank you.
    Ms. Sweeney. Senator, I certainly appreciate your 
perspective and understand these issues are important to you. I 
am willing to work with you and your staff on issues pertaining 
to your State.
    I would like to say that Alaska and Washington have had 
such a collegial relationship in our histories. If you look at 
the leadership the Yakima Nation provided to the Alaska Native 
community in the 1960s when oil was first discovered and we 
were trying to figure out what we were going to do with our 
land claims and how we were going to assemble, it was through 
their leadership and support for our right to self-
determination that we were able to come together as an Alaska 
Native community to have the debate.
    It was their financial support that enabled people to 
travel great distances to engage in that meaningful 
conversation that then led to the Alaska Native Claims 
Settlement Act. I hope in my tenure I can be a bridge between 
Alaska and Washington.
    Senator Cantwell. You will never get me to disagree that 
our Washington tribes show a lot of leadership.
    Ms. Sweeney. Thank you.
    Senator Cantwell. Thank you.
    The Chairman. Senator Daines.

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Mr. Chairman.
    I would first like to welcome Councilmen Morin and Stiffarm 
from the Fort Belknap Indian Community who have come a long way 
to be here with us from Montana. Welcome. It is good to have 
you both here.
    In my capacity as Chair of the Energy and Natural Resources 
Subcommittee on National Parks, I have led the charge against 
sexual harassment within the National Park system. I have done 
the same with respect to findings of misconduct within the U.S. 
Forest Service.
    It is not talked about nearly enough that the Bureau of 
Indian Affairs actually suffers from the highest rates of 
harassment of any agency within the Department of the Interior. 
The department's September 2017 report details an estimated 40-
plus percent of employees experience one or more forms of 
harassment over the course of a year. Those numbers are 
staggering.
    I applaud Secretary Zinke's efforts to reduce harassment 
and assaults at Interior but it is going to take the leadership 
of the entire department and staff like you will be critically 
important to make that effort effective.
    Ms. Sweeney, if confirmed, what would you do to combat 
sexual harassment within the department?
    Ms. Sweeney. Thank you for your question, Senator Daines.
    To combat sexual harassment, first and foremost, I have a 
zero tolerance policy for sexual harassment. I strongly believe 
in creating a safe work environment for our employees. No 
employee should ever fear coming to work because of harassment.
    It is going to be important to take best industry standard 
practices from the private sector and translate those into the 
public sector and working obviously with staff to ensure that 
it is a harassment-free environment.
    Senator Daines. Detailed in a footnote in the DOI 
harassment reports is the fact that less than 10 percent of 
Bureau of Indian Education employees chose to even participate 
in the study. In fact, the report noted, ``The low BIE response 
rate resulted in too few cases for inclusion and analyses due 
to the unreliability of the estimates.''
    The first question is, do you see that as a problem and 
second, what would you do to increase reporting of assault and 
harassment?
    Ms. Sweeney. I certainly do see that as a problem, Senator. 
In my opening statement, I referenced my first 180 days taking 
a very pragmatic and disciplined approach to understanding the 
issues facing the department.
    First and foremost, I would have internal briefings with 
staff and then, learn about other issues impacting Indian 
Country from other departments, bureaus and agencies. That 
would empower me with that knowledge to then sit down with the 
tribal leaders in Indian Country to have that discussion.
    I believe with respect to harassment, whether just inside 
the department or systemic throughout Indian Country 
workplaces, we have to combat that. It is unacceptable for 
employees to come to work in fear.
    Senator Daines. Thank you.
    Shifting gears, last month I received a letter from the 
Crow Tribe's judicial branch detailing how BIA caseworkers 
regularly fail to show up for child abuse and neglect hearings, 
depriving the tribal court of potentially life-saving 
information regarding the whereabouts and well-being of these 
children under the court's custody, among other serious 
shortcomings.
    In fact, the 2017 Montana Child Abuse and Neglect Report 
revealed 14 child fatalities in Montana in a one year period. 
Four of them were Indian children. Doing some rough math, that 
is about 28 percent, although our Native populations in Montana 
are approximately 7 percent, so literally four times. I realize 
it is a smaller population size but we are talking about the 
lives of children.
    At the end of last year, my bill to protect Indian and non-
Indian children alike from the devastating effects of parental 
methamphetamine use became law. But there is still a lot of 
work to be done.
    Ms. Sweeney, would you see better coordination across 
Federal departments and agencies as essential to preventing 
child abuse and neglect in Indian Country.
    Ms. Sweeney. Thank you for your question, Senator Daines.
    To answer succinctly, yes, I do. I believe in breaking down 
silos. I also believe in creating strategic partnerships to 
address issues. Child safety and child neglect is one issue and 
there are many others.
    Senator Daines. Looking at the agencies, HHS, DOJ, DOI, 
oftentimes we get the proverbial stovepipes in getting better 
coordination and help.
    Last is just a comment. I am working with DOI officials at 
this very moment to hold the local BIA caseworkers accountable 
to ensure the safety of the children in the Crow tribal court 
instance I brought up.
    Thank you.
    Ms. Sweeney. Thank you.
    The Chairman. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    I have one more policy-related question regarding the 477 
legislation. It is no longer legislation; it is now law, the 
Indian Employment and Training Related Services Initiative. I 
think we all recognize what a great tool that was across Indian 
Country to really streamline services and really help us do 
some leveraging.
    We have now made this demonstration project permanent in 
terms of working across departments, as Senator Daines 
discussed, with employment, the tribal agendas, and really 
working to advance that. I understand that they are working now 
within BIA to get some MOUs out there in a timely manner. That 
will be important.
    There is a process yet to get you firmly situated in this 
position for which you have been nominated but my hope is that, 
once you are confirmed, you will work aggressively with these 
other departments to help educate them about the benefits of 
this initiative.
    We recognize internally how those benefits play out but in 
order to get everyone to work well together, it is going to 
require some education. I do not know if you have thought about 
what your plan might be to help facilitate that but know it is 
going to be important as we move forward.
    Ms. Sweeney. Thank you, Senator Murkowski.
    With respect to the 477 legislation, the program, while I 
cannot speak directly to the status inside the department 
today, if confirmed, I am absolutely committed to innovative 
approaches to workforce development.
    I believe workforce development provides opportunities for 
our people. Through those opportunities, we have the ability to 
then lift up our communities. Working as the lead agency under 
the 477 program is very exciting but I also understand the task 
ahead in educating other departments and Indian Country on the 
benefits of a program of this nature.
    I am excited about that program and am certainly looking 
forward to creating innovative ways for workforce development 
in Indian Country.
    Senator Murkowski. Great. It is so important. I want to 
conclude my comments and I appreciate the second round, Mr. 
Chairman.
    When you have repeated that you view part of the 
responsibility here to breakdown silos, I cannot stress enough 
how important it is. Think about the title for which you have 
been nominated, Indian Affairs. What is that? That is housing, 
energy, commerce, labor, justice, education, small business, 
and transportation.
    You know what? We have Secretaries and Cabinet members for 
each one of those. You are tasked with the oversight of all of 
this, so we need you busting down doors and saying, we have to 
talk about how our Native people are going to be the most 
skilled, best trained, and able to take advantage of all kinds 
of efforts. You need to be knocking on the door of the 
Secretary of Education and demanding assistance with how we 
make sure that our Native children receive the best education 
possible, health care, energy and it goes on and on.
    The responsibility the President has asked you to take on 
is an extraordinary one. It is challenging. I do have 
extraordinary confidence, but it will require inserting 
yourself in places where I do not think the Assistant Secretary 
for the BIA has ever felt comfortable moving into.
    I think that has been part of the problem. The BIA has been 
kind of put on the side, we will get to it when we get to it. 
Funding, hmm, we will work on that budget when we get to it.
    Inserting yourself into these places so that it is clearly 
understood this trust responsibility we have for our Native 
peoples around this Country is one that cannot be traded away 
or low-balled on the priority list. So it is big but I know you 
got it.
    Ms. Sweeney. Thank you, Senator Murkowski, for the 
confidence. I certainly appreciate it.
    I am up to that challenge. For those who know me, they know 
that I work with no fear because fear has no place in the way I 
conduct myself or in how I conduct myself in the business 
world. I am not afraid to kick down doors if I have to or 
politely knock on that door, but I am persistent.
    I have a vision for Indian Country that is economic 
empowerment. That includes breaking down those silos. It 
includes supporting sovereignty and the trust responsibility 
for Indian Country and providing them with the policies, the 
procedures and the tools to exercise their right to self-
determination.
    Senator Murkowski. Thank you.
    Ms. Sweeney. Thank you.
    Senator Murkowski. Thank you, Mr. Chairman.
    The Chairman. Vice Chairman Udall.
    Senator Udall. As I said in my opening, a successful 
Assistant Secretary for Indian Affairs must be an informed and 
effective advocate for Indian Country priorities. If confirmed, 
that responsibility to advocate will rest on your shoulders not 
only with Congress and the Interior Department but with the 
entire Federal Government. I think that is really the point 
Senator Murkowski was making, the entire Federal Government.
    I say this because since this Administration began it has 
expressed several positions that call into question the Federal 
trust responsibility and the United States treaty obligations 
to provide tribes with health care, education, housing and 
other social services.
    It is not clear if these statements were due to lack of 
familiarity with Federal Indian law. This is the possibility 
that concerns me most, whether they were made with willful 
disregard for these well-established principles.
    The most recent example involves the Centers for Medicare 
and Medicaid Services which questioned the unique legal status 
of Indian tribes under Federal law. Five members of this 
Committee signed my letter correcting CMS's apparent legal 
misunderstanding and urging HHS Secretary Azar to revise the 
stated misinterpretation by the agency.
    While the agency has since walked back its position 
somewhat in response to my letter, it is clear that more 
education on basic tenets of Federal Indian law is still 
desperately needed. How are you going to address any future 
fundamental misunderstanding of Federal Indian law among the 
Executive?
    Ms. Sweeney. Thank you for your question, Vice Chairman 
Udall.
    With respect to Federal Indian law and the Administration, 
I view my role as Assistant Secretary, if confirmed, as an 
advocate for Indian Country inside the Administration, inside 
the leadership of the department, but also across the Executive 
Branch. If we have to salt other departments with some 
education on the Federal trust responsibility to Indian 
Country, I am more than willing to do that.
    Senator Udall. Great. Will you commit to defending the 
unique legal status of American Indian and Alaska Native 
tribes?
    Ms. Sweeney. That would be my role as Assistant Secretary.
    Senator Udall. Great. Thank you, Ms. Sweeney.
    The Bears Ears National Monument is a living cultural 
landscape of desert canyons and mountains that contains tens of 
thousands of archaeological sites, rock paintings, cliff 
dwellings and ceremonial kivas.
    Many tribes, including some New Mexico tribes, consider the 
Bears Ears their ancestral home. I know President Begaye from 
the Navajo Nation, who walked in moments ago, has been a great 
advocate for that.
    The effort to protect this special place by a monument 
designation came on the heels of years of hard work by the 
Bears Ears Intertribal Coalition and unified support from 
tribes across Indian Country, including the National Congress 
of American Indians.
    Despite this strong tribal support, the national monument 
was rescinded. This move was unprecedented and ill-advised, in 
my opinion. I know that much of Indian Country agrees. As I 
have stated, if confirmed, will you be the highest ranking 
advocate for Indian Country within this Administration?
    Ms. Sweeney. Thank you, Vice Chairman Udall.
    With respect to your question, I cannot speak for the 
process upon which the Administration has arrived at those 
decisions simply because I am not at the department. Moving 
forward, if confirmed, my role as Assistant Secretary would be 
to advocate for Indian Country in those discussions.
    Senator Udall. In light of that, I think you hit it on the 
head, I would like to know whether you will commit to clearly 
communicate and explain Indian Country's opposition to the 
Bears Ears decision at the highest levels within the department 
and at the White House?
    Ms. Sweeney. That would be within my role as Assistant 
Secretary, yes.
    Senator Udall. Ms. Sweeney, I am sure you are aware that 
the BIE was added to the Government Accountability Office's 
high risk list. The Bureau had a number of problems over the 
years and we all agree that more must be done at the BIE.
    I would like to end by inviting you out to New Mexico to 
see the variety of BIE schools, especially to see examples of 
tribal and student success within the BIE framework. I look 
forward to seeing you out there. Thank you very much for your 
testimony today.
    Ms. Sweeney. I welcome the opportunity.
    Senator Udall. Thank you, Madam Chair.
    Ms. Sweeney. Thank you.
    Senator Murkowski. [Presiding.] Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you, Madam Chair.
    Ms. Sweeney, welcome and congratulations on your 
nomination. Thank you for taking the time to visit with me. We 
had a great conversation.
    Welcome to your family. Believe it or not, I have spent 
some time in Barrow, Alaska. Let me say, Eskimo ice cream is 
not the ice cream that I know.
    Let me just point out that Chairman Torres from Nevada with 
the Walker River Paiute Tribe is here.
    As you well know, we had this conversation about so many 
incredible tribal communities in the State of Nevada who all 
have the same concerns that you have heard, in a bipartisan 
way, from all of my colleagues, that we need an advocate, 
someone who is going to fight for our tribal communities. We 
have a system that appears to be broken and we need to fix it.
    I would like to start with an issue that has come to my 
attention and I am disappointed that do not have more 
information. I am hoping you can help me with this.
    The Department of the Interior's fiscal year 2019 budget 
justification includes almost $18 million to begin the process 
of reorganizing of the Department of the Interior along 13 
regional offices, yet the department has provided little 
information to Congress.
    This request includes roughly $900,000 to support the 
department's migration to common regional boundaries. I have 
seen only a draft of the map which would cut my State in half. 
I have been hearing from my constituents, from farmers and 
ranchers, conservation groups and our tribes who fear the 
creation of joint management areas would create another 
bureaucratic layer or an additional level of authority.
    The question I have for you is, one, have you been briefed 
on the reorganization plan or do you know anything about it? 
Second, how would you address the concerns I am hearing from my 
constituents and I am sure across the Country as this 
reorganization occurs?
    Ms. Sweeney. Thank you for your question.
    I have not been briefed on the reorganization so the 
actions that have been taken by the department to date, I am 
not read in on. So I am not familiar with how they have arrived 
at the decisions they have made.
    Moving forward, if confirmed as Assistant Secretary, again, 
as I stated before, I want to be boots on the ground in Indian 
Country. I want to sit down and meet with tribal leadership to 
understand what their needs are and engage in meaningful 
consultation. With a reorganization effort that may be 
underway, it warrants that engagement.
    Senator Cortez Masto. I appreciate that. The next question 
I have for you is, can you describe what you consider 
appropriate tribal consultation in this area? Let me just 
caution you, at this very hearing, at the same table, we had 
representatives from the Department of the Interior who 
basically said they haven't even had any tribal consultation 
yet. They have not talked to the tribes about this 
reorganization, even though it has been an ongoing plan for 
some time.
    What do you envision that tribal consultation to look like?
    Ms. Sweeney. I would envision not a check the box 
mentality. I have sat on the other side of consultation 
meetings before. In the past, in the private sector, in my 
professional experience, at times, depending on the department, 
the mentality is very different. I am not going to bring a 
check the box mentality.
    I truly believe in stakeholder engagement. I believe in 
going local first because that is the de-risking agent to any 
policy project, understanding that local perspective. That is 
the background that I bring coming from the private sector and 
the advocacy work I have done on behalf of our people on the 
North Slope and in Alaska. I want that to translate into Indian 
Affairs.
    Meaningful consultation means engagement with tribal 
leadership. Meaningful consultation means listening and hearing 
the message but also working with the tribal communities to 
find the appropriate answers to advocate inside the department.
    As Assistant Secretary, my role inside the department will 
be to aggressively advocate for those policies.
    Senator Cortez Masto. Can I also take that to mean that to 
be an advocate, if you are not invited into the board room to 
be there to represent tribal communities, that you force your 
way in or at least try to be there to be a voice if you are not 
invited to represent the tribal communities in this 
reorganization?
    Ms. Sweeney. I wish you knew my grandmother.
    Senator Cortez Masto. I will take that as a yes.
    Ms. Sweeney. Let us just say I am persistent.
    Senator Cortez Masto. Good. That is what I am looking for.
    I am also looking for a commitment that you would be 
willing to come back to the Committee as well and share with us 
always information that you need. I think my colleague, Senator 
Heitkamp, said it best. What we are looking for is an advocate 
here as well. We need to know what we should be doing.
    We are all here in a bipartisan way to support our tribal 
communities, to support getting the resources where they need 
to be. Our goal has been to ensure we are hearing from you but 
you need to also let us know what you need.
    Ms. Sweeney. I welcome the opportunity to work with this 
Committee on such policies.
    Senator Cortez Masto. I have one more question. I know my 
time is running out. It is just a follow-up on Ranking Member 
Udall's question on monuments.
    Nevada, as well, has two new monuments, Basin and Range 
National Monument and Gold Butte. Both of these national 
monuments also contain important tribal cultural resources in 
need of protection. One of them, Gold Butte, is one that has 
been recommended by the Secretary of the Interior to change its 
boundaries.
    My question for you is how will you defend against 
executive action proposing to diminish or eliminate these 
national monuments?
    Ms. Sweeney. Again, while I have not been involved in the 
decision-making process to date, I certainly understand this 
issue and the monument designation issue. It is important to 
you and other members of this Committee. I look forward to 
learning more about that.
    Senator Cortez Masto. Thank you.
    Thank you, Madam Chair. I appreciate the extra time. Thank 
you.
    Senator Murkowski. Thank you, Senator.
    I am done. I have had an opportunity to ask my questions 
and I am pleased you were able to field a range of questions. I 
think you can see from this Committee we are one that I think 
really takes our role as members of the Indian Affairs 
Committee very, very seriously.
    I have had an opportunity to serve on this Committee every 
year since I came to the Senate. I have found there is a level 
of passion and these issues are so bipartisan. The issue that 
Senator Tester talks about, law enforcement, and what Senator 
Smith and I are working on, being able to provide for greater 
protection for the safety of people, it is not Republican or 
Democrat, it is just trying to find the right solutions for our 
Native people.
    Some of the issues are very parochial to issues that may 
relate to tribes within the members' regions. We expect you to 
know all the finite little details of all of that and then the 
broader picture of the policies as they relate to land-into-
trust, to workforce development and to economic opportunities 
and empowerment for our Native people.
    The responsibilities are considerable but you, in my view, 
have certainly said those things I was hoping to hear, that you 
take very seriously the responsibility for consultation and 
that will be executed in a meaningful way and not, as you used 
the term, checking the box, to make sure you are in those 
places where Native voices need to be heard and represented, 
whether you are invited or not, to break down the silos when it 
comes to funding and within the bureaucracy, bring a discipline 
in management to an agency that many of us feel is broken 
internally right now.
    That is going to require a lot of time and emphasis working 
within your team to build that team because there are a lot of 
people around this Country relying on you and your team to be 
very, very successful.
    Again, I know you are up to the challenge. I have every 
degree of confidence. I could not be more proud as an Alaskan 
to be able to help shepherd you through this process. I am 
certainly going to urge the Chairman and Vice Chairman of this 
Committee that we expedite a markup to move your name out of 
Committee to the Floor.
    We have been without leadership at the BIA for far too 
long. We need exactly your type of leadership. I thank you for 
your willingness to serve, the willingness of your family to 
back you, and the many, many friends who helped make you the 
woman you are.
    If there are no more questions for today, members may also 
submit follow-up written questions for the record. I would ask 
members do that promptly. I would also ask the nominee to 
respond fully and promptly to any follow-up questions we may 
have and also meet with any remaining Committee members who may 
wish to do so.
    I think Senator Cantwell mentioned she was going to have a 
follow up or perhaps an opportunity to discuss further but the 
record will remain open for one week.
    I want to thank you for your time and your testimony.
    With that we stand adjourned.
    [Whereupon, at 5:46 p.m., the Committee was adjourned.]

                            A P P E N D I X

                                 Choctaw Nation of Oklahoma
                                       Durant, OK, October 20, 2017
Hon. Ryan Zinke, Secretary,
U.S. Department of the Interior,
Washington, DC.
     Re: Choctaw Nation Support for the nomination of Tara 
            Sweeney for Assistant Secretary--Indian Affairs

    Dear Secretary Zinke:

    Halito (Hello) and warm greetings from the Choctaw Nation of 
Oklahoma. I am writing to express our appreciation to you and the 
President for nominating Tara Sweeney to be Assistant Secretary--Indian 
Affairs at the Department of the Interior.
    We were pleased to hear the announcement of her selection. That 
post is of great importance to the Choctaw Nation and to all tribal 
nations. From reports we have heard from others who know Ms. Sweeney, 
we believe she will ably and honorably fill that position. Having a 
Native woman of her stature and experience as Assistant Secretary will 
bring added value to the Department, especially in the areas of 
economic self-determination and self-sufficiency that are so vital to 
the welfare of our tribal citizens. We have great hopes that Ms. 
Sweeney's impressive economic experience will positively shape federal 
Indian policy in a way that honors our treaties, respects our 
governmental status, and removes federal obstacles to tribal economic 
development throughout Indian Country.
        Yakoke,
                                        Gary Batton, Chief.
                                 ______
                                 
  National Congress of American Indians (NCAI), May 9, 2018
Hon. John Hoeven,
Chairman;
Tom Udall,
Vice Chairman,
Senate Committee on Indian Affairs,
Washington, DC.
Re: Support for the Nomination and Confirmation of Tara Mac 
Lean Sweeney to Serve as the Assistant Secretary for Indian 
                                                    Affairs

Dear Chairman Hoeven and Vice Chairman Udall:

    I write to you on behalf of the National Congress of American 
Indians (NCAI), the oldest, largest, and most representative American 
Indian and Alaska Native organization serving the interests of tribal 
governments and communities, regarding the nomination of Tara Mac Lean 
Sweeney to serve as the Assistant Secretary for Indian Affairs. The 
Department of the Interior has an essential role in upholding the 
federal treaty and trust obligations. Accordingly, there is perhaps no 
more important pending nomination to ensuring the Administration is 
well-positioned to honor the centuries-old government-to-government 
relationship between Indian tribes and the United States.
    Ms. Sweeney has demonstrated she meets the qualifications of the 
office. She is a member of the Native Village of Barrow and the Inupiat 
Community of the Arctic Slope, and she has a strong record as an 
involved community member and leader. Ms. Sweeney has demonstrated her 
commitment to Alaska Native and tribal issues working for nearly two 
decades for her Native regional corporation and as Co-Chair of Alaska 
Federation of Natives (AFN). Through this service, as well as her 
considerable work with business and non-profit boards, she has gained 
extensive administrative experience and demonstrated her proficiency as 
a leader. She has also served the public as the Special Assistant of 
Rural Affairs and Education to the Governor of Alaska. Given her 
experience and leadership qualities, we believe Ms. Sweeney has the 
ability to meet the demands of the Office of Assistant Secretary for 
Indian Affairs.
    Success as a leader depends both on an individual's merits as well 
as the strength of the team surrounding that individual. This is 
especially true for the Office of the Assistant Secretary for Indian 
Affairs due to the Department's extensive responsibilities to the 573 
federally recognized Indian tribes. We encourage the Department to 
ensure that it has the appropriate personnel in place to uphold its 
treaty and trust obligations to all of Indian Country.
    In light of the foregoing, NCAI hereby offers its support for the 
nomination and confirmation of Tara Mac Lean Sweeney to serve as the 
Assistant Secretary for Indian Affairs. Please do not hesitate to reach 
out to NCAI Executive Director Jacqueline Pata if you have any 
questions.
                                 ______
                                 
                 U.S. Chamber of Commerce, October 17, 2017
Hon. John Hoeven,
Chairman;
Tom Udall,
Vice Chairman,
Senate Committee on Indian Affairs,
Washington, DC.

Dear Chairman Hoeven and Vice Chairman Udall:

    The U.S. Chamber of Commerce strongly supports the nomination of 
Tara Sweeney as Assistant Secretary for Indian Affairs at the 
Department of the Interior.
    Ms. Sweeney would bring a wealth of experience to the position, 
having been engaged on a host of policy issues important to Indian 
Country with two decades of leadership positions at the Arctic Slope 
Regional Corporation.
    She is a long-serving board member as well as past co-chair of the 
Alaska Federation of Natives, whose goal is to encourage economic 
development consistent with the needs of Alaska Natives.
    Ms. Sweeney is also active internationally; she is a past chair of 
the Arctic Economic Council, an international organization focused on 
growing business and economic development in Arctic nations.
    The Chamber has also had a long relationship with Ms. Sweeney. Her 
leadership encouraged the Chamber to create the Native American 
Enterprise Initiative, which focusses on crucial economic issues 
confronting tribally owned businesses and Native American-owned 
enterprises.
    The Chamber strongly supports Ms. Sweeney's nomination and urges 
swift consideration by the Committee.
        Sincerely,
                    Neil Bradley, Senior Vice President/CPO
                                 ______
                                 
       Alaska Federation of Natives (AFN), February 9, 2017
Hon. Lisa Murkowski,
United States Senate,
Senate Hart Office Building,
Washington, DC.

Hon. Don Young,
United States House of Representatives,
Rayburn House Office Building,
Washington, DC.

Hon. Daniel Sullivan,
United States Senate,
Senate Hart Office Building,
Washington, DC.
   Re: Support for Tara Katuk Sweeney Assistant Secretary, 
                 Indian Affairs U.S. Department of Interior

Dear Senator Murkowski, Senator Sullivan, and Congressman Young,

    On behalf of the Alaska Federation of Natives (AFN), I am writing 
to express our unqualified support for the appointment of Tara Sweeney 
for Assistant Secretary--Indian Affairs, for the Department of the 
Interior. AFN represents more than 140,000 Alaska Natives, including 
151 federally recognized tribes, 150 village corporations, 12 regional 
corporations, and 12 regional nonprofit and tribal consortiums that 
contract and compact to run federal and state programs. Our mission is 
to enhance and promote the cultural, economic and political voice of 
the entire Alaska Native community.
    We have worked with Tara for many years and have never seen a 
harder more dedicated individual who is focused on providing value and 
real results. Her work ethic is well known and is a real attribute to 
her and any position she might be appointed too. She is smart, 
thoughtful and hard-driving. To Tara there are no problems, only 
challenges to overcome, and opportunities to seize.
    Tara will bring a unique set of skill-sets to this position. She 
understands how important the economic and energy sector is to 
sustainable Native communities and the continued way of life in rural 
America. She is very supportive of public-private partnerships to 
stretch limited federal resources. She understands the high-cost of 
living in remote rural Alaska and on the reservations. She also 
understands the delicate balance of protecting and harvesting wild game 
on federal public lands. She is a hunter herself and continues the long 
tradition in the Arctic of subsistence hunting and fishing.
    Tara is well respected and knows how to build coalitions and lead 
teams to accomplish directions set by the Administration. She will 
provide excellent advice and counsel to the Secretary of Interior and 
the White House from her strong background and knowledge of promoting 
Alaska Native rights, cultural values, and economic sustainability. She 
has been immersed in public policy from an early age, with her mother, 
the late Eileen Panigeo MacLean a respected Alaska State Legislator 
representing remote rural areas in Alaska. Influenced by her mother's 
public service and her father's strong emphasis on education, Tara 
experienced firsthand the need to be well informed, to make good 
decisions, build coalitions and be focused on accomplishing real 
deliverables for the people who depend on effective government.
    Tara's experience at Arctic Slope Regional Corporation and as 
former co-chair and board member of the Alaska Federation of Natives 
gives her a strong understanding of Native affairs both at the local, 
regional and national level. She will be a staunch supporter of the 
Administration and the Native people of our country. Her resume details 
specific experiences which show her capability and qualifications.
    If we can provide additional information, please contact us.
        Sincerely,
                                     Julie Kitka, President
                                 ______
                                 
                  ANCSA Regional Association, March 7, 2017
Hon. Ryan Zinke,
U.S. Department of the Interior,
Washington, DC.
Re: Support of Tara Katuk Sweeney for Assistant Secretary, 
                 Indian Affairs U.S. Department of Interior
Dear Secretary Zinke,
    On behalf of the ANCSA Regional Association (the Association), we 
write to express our unanimous support for the appointment of Tara 
Sweeney for Assistant Secretary, Indian Affairs, U.S. Department of the 
Interior. The ANCSA Regional Association represents the Chief Executive 
Officers of the twelve land-based regional Alaska Native Corporations 
(ANCs), as well as the President of the Alaska Federation of Natives. 
Our corporations are owned by over 121,000 Alaska Native people and 
were formed under the Alaska Native Claims Settlement Act of 1971, 43 
U.S.C.  1601, et. seq. (ANCSA). Our mission is to promote and foster 
the continued growth and economic strength of the Alaska Native 
Regional Corporations on behalf of our shareholders. When measured 
against the top 49 Alaska-owned companies, ANCs account for 75 percent 
of the revenue earned, 69 percent of Alaskan jobs, and 86 percent of 
the global employment. Making up 20 of the top 49 Alaska-owned 
companies, Alaska Native Corporations have become an economic engine of 
Alaska.
    The Association has worked with Tara for many years on issues 
facing Alaska Natives and American Indians, and feel she is 
particularly well qualified for this appointment given her more than 
ten years' experience in leadership positions and roles in private, 
public and non-profit organizations; and active engagement in Native 
American policy development and advocacy. Additionally, Tara has nearly 
20 years of leadership experience with Alaska's largest privately owned 
company, Arctic Slope Regional Corporation (ASRC), currently serving as 
their Executive Vice President, External Affairs.
    Tara also serves as the Chair of the Arctic Economic Council. She 
was elected to serve as chair by the eight Arctic states and six 
indigenous permanent participants. Tara has led many of our nation's 
efforts to form international arctic policy as it relates to economic 
development. Furthermore, Tara has served as a member of the board of 
the Alaska Federation of Natives since 2009 and as co-chair in 2013-
2014, leading that organization's reorganization efforts, redrafting 
bylaws and other significant changes.
    Tara is a dedicated, hard-working and fearless leader focused on 
providing value and real results across local, national and 
international boundaries. Her passion shows through in every challenge 
she faces. She understands how important the economic and energy sector 
is to sustainable Native communities and the continued way of life in 
rural America. She is very supportive of public-private partnerships to 
stretch limited federal resources. She understands the high-cost of 
living in remote rural Alaska and on the reservations. She also 
understands the delicate balance of protecting and harvesting wild game 
on federal public lands. She is a hunter herself and continues the long 
tradition in the Arctic of subsistence hunting and fishing.
    The ANCSA Regional Association strongly supports Tara's appointment 
as the next Assistant Secretary--Indian Affairs, for the Department of 
the Interior. If we can provide additional information, please contact 
us.
        Sincerely,
                                    Gabriel Kompkoff, Chair
                          Kim Reitmeier, Executive Director
                                 ______
                                 
Arctic Slope Regional Corporation (ASRC), February 14, 2017
Trump Transition Team
                        RE: RECOMMENDATION FOR TARA SWEENEY
Dear Trump Transition Team:
    Arctic Slope Regional Corporation (ASRC) is proud to support Ms. 
Tara MacLean Sweeney's as the nominee for Assistant Secretary of Indian 
Affairs (AS-IA) in the Department of Interior. Ms. Sweeney currently 
serves as Executive Vice President of External Affairs for ASRC and is 
responsible for all facets of the company's government relations and 
communications. By way of quick background, ASRC is the largest 
locally-owned and operated business in Alaska, with approximately 
13,000 Inupiat Eskimo (Alaskan Native) shareholders and more than 
12,000 employees stretching across Alaska and the Lower-48 states.
    In her government affairs role for ASRC, Ms. Sweeney has formulated 
and advocated for changes in State and Federal policy, changes that 
affect the lives of rural Arctic Alaskans like the people of her 
hometown as well as for changes that affect the State of Alaska as a 
whole. Her advocacy has brought the people of the Arctic together with 
like-minded tribes of the Lower 48 states on issues from Indian energy 
development, to government contracting, to the development of broadband 
communication and other vital infrastructure. Ms. Sweeney has walked 
the halls of Congress and has testified in countless U.S. Congressional 
and Senate hearings on behalf of Native American people.
    In addition to her internal posting at ASRC, Ms. Sweeney has served 
her home state and country--from her work as co-Chair of the Alaska 
Federation of Natives (2013-2014) to her most recent role as Chair of 
the internationally active Arctic Economic Council (AEC) (2015-
present). At the AEC, Tara represents the business interests of the 
Arctic nations (the US, Canada, Greenland/Denmark, Iceland, Norway, 
Sweden, Finland, and Russia), as well as numerous indigenous Permanent 
Participants. In her capacity as Chair, Ms. Sweeney has illuminated the 
needs of Arctic communities and the highlighted the best practices of 
circum-Arctic business leaders. In her role as Chair, Tara Sweeney has 
the attention of the ambassadors and foreign ministers of the Arctic 
nations as well as a wider circle of related international interests.
    In the U.S., strengthening the Federal Government's relationship 
with Indian Country is vital, which is why I am so passionate about 
Tara's potential role as AS-IA. Sweeney has spent her adult life 
promoting self-determination for Alaska Natives. She has forged 
policies which allow us to develop our own lands and refine our own 
energy resources-as well as protecting the cultural needs of our people 
that remain unchanged through time. She has earned a reputation for 
being an effective advocate for balanced Native American policy. As her 
own Statement of Qualifications shows, Tara comes to the task at Indian 
Affairs completely and extraordinarily prepared. Although uniquely 
suited to a potential role as AS-IA at the Department of Interior, I 
would argue that Ms. Sweeney's skillset is nearly unparalleled and that 
she be considered for any position at an equal or higher place in your 
Administration.
    Tara Sweeney is on very familiar terms with our Alaskan 
Congressional delegation and I am sure you will find a vote of 
confidence in Tara's abilities from that quarter as well. She, along 
with her husband Kevin Sweeney, are raising two school-age children 
(high school and college), and all are familiar with our nation's 
capital as both Tara and her husband have found need to be stationed in 
Washington DC at various times during their careers. Tara knows her way 
around the Beltway.
    Let me congratulate you once again on the successful election and 
transition in Washington. If you have any questions regarding our 
recommendation of Ms. Sweeney, please don't hesitate to contact me 
directly. As you can see, we value Ms. Tara Sweeney highly and endorse 
her consideration knowing she has the potential to serve her people and 
her country at the highest level.
        Sincerely,
                             Rex A. Rock Sr., President/CEO
           Cook Inlet Region, Inc. (CIRI), February 9, 2017
Hon. Lisa Murkowski,
United States Senate,
Senate Hart Office Building,
Washington, DC.

Hon. Don Young,
United States House of Representatives,
Rayburn House Office Building,
Washington, DC.

Hon. Daniel Sullivan,
United States Senate,
Senate Hart Office Building,
Washington, DC.

Dear Senator Murkowski, Senator Sullivan, and Congressman Young:

    On behalf of Cook Inlet Region, Inc. (CIRI), I am writing to 
express our suppott for the appointment of Tara Sweeney as Assistant 
Secretary of Indian Affairs, U.S. Department of the Interior. CIRI 
believes Ms. Sweeney is pafticularly well qualified for this 
appointment given her more than ten years'experience in leadership 
positions and roles in private, public and non-profit organizations and 
active engagement in Native American policy development and advocacy.
    Ms. Sweeney has nearly 20 years of leadership experience with 
Alaska's largest privately owned company, Arctic Slope Regional 
Corporation (ASRC), currently serving as the company's Executive Vice 
President, External Affairs. Her primary responsibilities include 
strategic policy and position development, implementation and 
execution, engagement with federal and state executive and legislative 
branches on improving policies affecting Indian energy, taxation, 
resource development, government contracting, broadband development and 
all facets of corporate communication.
    Ms. Sweeney serves on the Arctic Economic Council, an international 
council established during the Canadian chairmanship of the Arctic 
Council, and in 2015 was elected to serve as chair by the eight Arctic 
states and six indigenous permanent paftic!pants. Additionally, Ms. 
Sweeney has served as a member of the board of the Alaska Federation of 
Natives since 2009 and as co-chair in 2Ot3-2014, leading that 
organization's reform effofts to be more inclusive for Tribes and 
provide them with strengthened voting rights.
    Ms. Sweeney is well respected and knows how to build coalitions and 
lead teams, skills that will enable her to accomplish the policies and 
directions set by the Administration. She will provide excellent advice 
and counsel to the Secretary of Interior and the White House from her 
strong background and knowledge of promoting Alaska Native rights, 
cultural values, and economic sustainability.
    She understands how important the economic and energy sector is to 
sustainable Native communities and the continued way of life in rural 
America. She is very supportive of public-private partnerships to 
stretch limited federal resources' She understands the high-cost of 
living in remote rural Alaska and on the reservations' She also 
understands the delicate balance of protecting and harvesting wild game 
on federal public lands. She is a hunter herself and continues the long 
tradition in the Arctic of subsistence hunting and fishing,
    CIRI strongly supports Ms. Sweeney's appointment as the next 
Assistant Secretary of Indian Affairs, U.S, Department of the Interior. 
If we can provide additional information, please contact us.
        Sincerely,
                               Sophie Minich, President/CEO
                                 ______
                                 
       Alaska State Legislature District 40, March 29, 2017
Hon. Ryan Zinke,
Secretary,
U.S. Department of the Interior,
Washington DC.

Dear Mr. Secretary:

    It gives me great honor to show support for Tara Sweeney, whom is 
being considered for the position of Assistant Secretary--Indian 
Affairs. Alaska, as you know, holds over a third of total federal lands 
within its boundaries and has more federally recognized tribes than any 
other region. Filling this position with someone intimately 
knowledgeable of both of these facets will not only bring valuable 
insights to these issues, but also increased efficacy to the position.
    Within the parameters established by the Congress and the Executive 
Branch, the primary responsibilities of the Assistant Secretary are to 
advise the Secretary of the Interior on Indian Affairs policy issues, 
communicate policy to and oversee the programs of the BIA and the BIE, 
provide leadership in consultations with tribes, and serve as the 
Department official for intra- and inter-departmental coordination and 
liaison within the Executive Branch on Indian matters.
    Tara Sweeney is the Executive Vice President of External Affairs 
for Arctic Slope Regional Corporation (ASRC), and is responsible for 
all facets of the company's government relations and communications. 
ASRC is the largest locally-owned and operated business in Alaska, with 
revenues in excess of $2.6 billion, with more than 12,000 shareholders 
and 10,000 employees worldwide. Sweeney has been actively engaged as an 
advocate for self-determination for Alaska Natives and enjoys mentoring 
young professionals.
    In 2003 she served as Special Assistant for Rural Affairs and 
Education in Governor Frank Murkowski's administration and most 
recently served as Co-Chair for Senator Dan Sullivan's (R-AK) 
successful 2014 Senate campaign. Sweeney has served on numerous 
business and non profit boards at both the state and national level. 
She was honored in 2008 as a ``Top 40 Under 40'' business leader by the 
Alaska Journal of Commerce. She currently serves as a member of the Ted 
Stevens Foundation, and as the chair of the Arctic Economic Council. 
Sweeney grew up in rural Alaska. While her family roots are in the 
Arctic Slope Region, she also lived in Noorvik, Unalakleet and Bethel. 
She graduated with a Bachelor of Science degree in Industrial and Labor 
Relations from Cornell University in Ithaca, New York.
    I recommend Ms. Sweeney without reservation. I am confident that 
she will excel in this position and be a valuable asset to our country 
and for all future growth.
    If you have any questions you may contact my office.
        Sincerely,
                               Representative Dean Westlake
                                 ______
                                 
National Center for American Indian Enterprise Development 
                                      (NCAIED), May 8, 2018
Hon. John Hoeven, Chairman;
Hon. Tom Udall, Vice Chairman,
Senate Committee on Indian Affairs,
Washington, DC.
    Re:Support for Tara Sweeney as Indian Affairs Assistant Secretary

Dear Chairman Hoeven and Vice Chairman Udall:

    On behalf of the National Center for American Indian Enterprise 
Development (NCAIED) and its Board of Directors, I write to reiterate 
our support for the nomination of Tara Sweeney to serve as the next 
Assistant Secretary of the Interior for Indian Affairs.
    From the NCAIED's perspective, Ms. Sweeney brings the perfect set 
of skills and broad experience--especially in business, economic, 
energy and natural resource development--to serve in this important 
policy and managerial position at Interior. Her record of staunch, 
effective advocacy on Native issues--and leadership in and 
collaboration with NCAIED and other leading national native 
organizations--will enable her to work effectively to make positive 
change from day one on the job. The NCAIED leadership has come to know 
Ms. Sweeney during her nearly two decades working in a variety of 
capacities for her Arctic Slope Regional Corporation (ASRC), a $2.6 
billion corporation and largest locally owned and operated business in 
Alaska. As ASRC's Executive Vice President for External Affairs, she 
has been responsible for government affairs and corporate 
communications, including strategic policy and position development and 
implementation, and government relations on issues such as Indian 
energy, taxation, resource development, government contracting, 
broadband deployment and access to capital. From her work on a variety 
of corporate and other private boards and federal advisory committees, 
Ms. Sweeney has gained valuable knowledge and developed relationships 
to draw upon in her new position. The National Center would be 
delighted to see this determined business executive, with a true 
passion for advancing business and economic development and self-
determination in Indian Country, become the Assistant Secretary for 
Indian Affairs.
    Personally, I know Ms. Sweeney as an astute, talented, effective 
and dependable collaborator and friend. In addition to her involvement 
with NCAIED's Reservation Economic Summit (RES), I worked with her on 
government contracting and access to capital initiatives when I served 
as an Associate Administrator at the U.S. Small Business 
Administration. The NCAIED supports Ms. Sweeney for Assistant 
Administrator, and urges her prompt approval.
        Respectfully,
                                 Chris James, President/CEO
                                 ______
                                 
                 Sault Ste. Marie Tribe of Chippewa Indians
Hon. Ryan Zinke,
Secretary,
U.S. Department of the Interior,
Washington DC.
RE: Support for Tara Sweeney as Assistant Secretary-Indian 
                                                    Affairs

    Dear Secretary Zinke,

    First, let me welcome you to your new responsibility as the primary 
trustee for American Indian tribes in fulfillment of the federal 
government's trust responsibility. As a Member of the National Congress 
of American Indians Executive Board and Chairperson of the Sault Ste. 
Marie Tribe of Chippewa Indians, I was supportive of your nomination of 
Secretary of Interior and voted to approve sending a letter of support 
for your nomination. I also serve as the President of the United Tribes 
of Michigan and Vice President for the Midwest Alliance of Sovereign 
Tribes.
    In 2012, I was one of ten Tribal leaders who met with Secretary 
Jewell to welcome her to working with Indian Country. In January of 
this years, she invited a small group of tribal leaders back to give 
feedback on her work and to encourage us to work with you as our new 
Secretary. Please feel free to call upon me during your tenure if you 
need assistance.
    I write to you today to express my Nation's support for appointment 
of Tara Sweeney as your new Assistant Secretary-Indian Affairs. Tara 
has decades of American Indian/Alaska Native affairs experience 
spanning the private, nonprofit, and public sectors and significant 
experience in international indigenous issues.
    Her strengths are in coalition building and listening to the voices 
of tribal leaders through meaningful consultation. Tara supports tribal 
sovereignty and recognizes the importance of upholding the federal 
trust responsibility. She has spent much of her career fighting for 
enhancing economic development opportunities for tribal communities. I 
expect she will continue that push as Assistant Secretary--Indian 
Affairs under your leadership. Tara would be an incredible asset for 
Indian Country and would work with all tribes to strengthen the nation-
to-nation relationship.
    Thank you for your consideration. Again, I wish to congratulate you 
on your recent confirmation as Secretary of the Interior. I hope we may 
have the opportunity to sit down with you soon to discuss our federal 
priorities.
        Respectfully,
                              Aaron A. Payment, Chairperson
                                 ______
                                 
           North Slope Borough, Alaska, OFFICE OF THE MAYOR
                                                  December 13, 2017
Hon. John Hoeven,
Chair, Committee on Indian Affairs,
U.S. Senate,
Washington, DC.

Dear Senator Hoeven:

    I am pleased to write to you to convey my support for the pending 
nomination of Tara MacLean Sweeney to serve as Assistant Secretary-
Indian Affairs at the U.S. Department of the Interior.
    I currently serve as the Mayor of the North Slope Borough, Alaska, 
the largest municipality in the United States in terms of landmass and 
the regional government for eight villages within the 89,009 square 
miles of the U.S. Arctic, north of the Brooks Mountain Range. The 
Borough has a population of approximately 10,000 residents, of whom 
nearly 70 percent are Inupiat.
    As the Mayor of the North Slope Borough, and having served North 
Slope communities in various capacities for my entire career, I can 
tell you from personal and professional experience that Tara stands out 
as a leader among leaders within the Inupiat community. But Tara also 
has represented Alaska Native interests broadly, serving as co-chair of 
the Alaska Federation of Natives, whose membership includes 151 
federally recognized tribes, 150 Alaska Native village corporations, 12 
Alaska Native regional corporations, and 12 Alaska Native regional 
nonprofit and tribal consortiums. Tara has also represented the 
interests of the indigenous community on the international stage 
through her work with the Inuit Circumpolar Council and as Chair of the 
Arctic Economic Council during the U.S. chairmanship of the Arctic 
Council, the lead intergovernmental forum for the promotion of 
cooperation and coordination among the Arctic States.
    Tara's expertise extends to many diverse areas--telecommunications, 
natural resource development, and American Indian and Alaska Native law 
and policy among them; but among this diversity of skillsets, I think 
it most compelling that Tara has the experience and proven ability to 
work with and across federal agencies and with members of Congress, 
state agencies, local governments, tribes and other stakeholders in the 
service of the American Indian and Alaska Native community.
    We would be proud to see Tara Sweeney become the first Alaska 
Native to serve as Assistant Secretary-Indian Affairs. She has my 
strong support.
        Sincerely,
                                   Harry Brower, Jr., Mayor
                                 ______
                                 
United South and Eastern Tribes Sovereignty Protection Fund 
                                                 (USET SPF)
                                                       June 4, 2018
Hon. John Hoeven, Chairman;
Hon. Tom Udall, Vice Chairman,
Senate Committee on Indian Affairs,
Washington, DC.

Dear Chairman Hoeven and Vice-Chairman Udall,

    On behalf of the United South and Eastern Tribes Sovereignty 
Protection Fund (USET SPF), we write to support President Donald 
Trump's nomination of Tara Mac Lean Sweeney as the Department of 
Interior's Assistant Secretary for Indian Affairs (ASIA). The first 
Alaska Native woman to be nominated, USET SPF echoes her commitment to 
Tribal self-determination and the promotion of Indian Country's 
priorities throughout the federal government. As she stated during her 
confirmation hearing, it is critical that she act as a voice for Tribal 
Nations both within and outside the Administration.
    USET SPF is a non-profit, inter-tribal organization representing 27 
federally recognized Tribal Nations from Texas across to Florida and up 
to Maine. \1\ Both individually, as well as collectively through USET 
SPF, our member Tribal Nations work to improve health care services for 
American Indians. Our member Tribal Nations operate in the Nashville 
Area of the Indian Health Service, which contains 36 IHS and Tribal 
health care facilities. Our citizens receive health care services both 
directly at IHS facilities, as well as in Triballyoperated facilities 
under contracts with IHS pursuant to the Indian Self-Determination and 
Education Assistance Act (ISDEAA), P.L. 93-638.
---------------------------------------------------------------------------
    \1\ USET SPF member Tribal Nations include: Alabama-Coushatta Tribe 
of Texas (TX), Aroostook Band of Micmac Indians (ME), Catawba Indian 
Nation (SC), Cayuga Nation (NY), Chitimacha Tribe of Louisiana (LA), 
Coushatta Tribe of Louisiana (LA), Eastern Band of Cherokee Indians 
(NC), Houlton Band of Maliseet Indians (ME), Jena Band of Choctaw 
Indians (LA), Mashantucket Pequot Indian Tribe (CT), Mashpee Wampanoag 
Tribe (MA), Miccosukee Tribe of Indians of Florida (FL), Mississippi 
Band of Choctaw Indians (MS), Mohegan Tribe of Indians of Connecticut 
(CT), Narragansett Indian Tribe (RI), Oneida Indian Nation (NY), 
Pamunkey Indian Tribe (VA), Passamaquoddy Tribe at Indian Township 
(ME), Passamaquoddy Tribe at Pleasant Point (ME), Penobscot Indian 
Nation (ME), Poarch Band of Creek Indians (AL), Saint Regis Mohawk 
Tribe (NY), Seminole Tribe of Florida (FL), Seneca Nation of Indians 
(NY), Shinnecock Indian Nation (NY), Tunica-Biloxi Tribe of Louisiana 
(LA), and the Wampanoag Tribe of Gay Head (Aquinnah) (MA).
---------------------------------------------------------------------------
    As the Senate Committee on Indian Affairs considers Ms. Sweeney's 
nomination, USET SPF would like to take the opportunity to focus on 
policy priorities for the incoming ASIA. The ASIA plays a critical role 
in elevating the voices of Indian Country, as well as delivering upon 
the federal government's trust responsibility and obligations. As the 
current Administration has yet to fully articulate its approach to 
Tribal Nations, it is vital that the incoming ASIA exercise leadership 
immediately to articulate a clear and comprehensive strategy for this 
Administration's efforts to fulfill its obligations in partnership with 
Tribal Nations. With this in mind, USET SPF would like to outline an 
approach the incoming ASIA must have to promote success in the position 
and for Indian Country.
Commitment to Tribal Consultation
    The incoming ASIA must commit to robust and ongoing Tribal 
consultation with all Bureau of Indian Affairs (BIA) Regions and Tribal 
Nations. This includes fully engaging with Tribal governments, 
including Tribal leaders, in a proactive and transparent manner to 
receive advice and guidance from Tribal Nations prior to federal 
action. USET SPF notes that Tribal Nations are just now being invited 
to consult upon the proposed reorganization of the Department of the 
Interior, despite the Department's continued implementation of this 
plan and an overall lack of specific information. With an ASIA finally 
seated, USET SPF hopes that the Administration will redouble its 
efforts to meaningfully engage in Tribal consultation. Tribal 
consultation is essential to the sacred government to government 
relationship between Tribal Nations and the United States, and is 
critical to ensuring the federal government fulfills its trust 
responsibilities and obligations. It is vital that the incoming ASIA 
regularly engage in a continued dialogue with Tribal Nations across the 
country, as well as honor our expectations and guidance with a goal of 
reaching consent for federal actions.
Land into Trust
    As a core trust responsibility, and as a matter of justice arising 
out of the massive land transfer effected to the United States by 
Tribal Nations under conditions of duress, DOI has, for nearly 85 
years, restored Tribal lands through trust acquisitions. These 
acquisitions enable Tribal Nations to build schools, health clinics, 
hospitals, housing, and provide other essential services to Tribal 
citizens. Moreover, because the trust responsibility is so deeply 
underfunded, many Tribal Nations depend on the economic development 
conducted on these lands in order to fund essential government 
services. Despite the views expressed by some outside of Indian 
Country, a majority of economic development on Tribal homelands does 
not result in significant revenue generation beyond supporting these 
services. DOI has approved trust acquisitions for approximately 5 
million acres of former Tribal homelands, far short of the more than 
100 million acres lost through Federal policies of removal, allotment, 
and assimilation.
    The Tribal Nations located in the eastern part of what is now the 
United States have a lengthier history when it comes to the systematic 
dispossession of our lands as a result of hundreds of years of federal 
(and before that, colonial) policies. In the wake of these policies, a 
majority of USET SPF Tribal Nations hold only a fraction of their 
homelands and some remain landless. Therefore, any changes to the 
current landinto- trust process will have particularly significant 
impacts in the east. We continue to work to reacquire our homelands, 
which are a fundamental to our existence as sovereign governments and 
our ability to thrive as vibrant, healthy, self-sufficient communities. 
And as our partner in the trust relationship, it is incumbent upon the 
federal government, especially the incoming ASIA, to prioritize the 
restoration of our land bases.
    As the BIA considers revisions to the Part 151 regulations, which 
are integral to Tribal Nation rebuilding, the ASIA must work in 
partnership with Tribal Nations to ensure this process promotes the 
restoration of Tribal homelands and does not give undue weight or 
influence to outside interests. USET SPF is encouraged by Ms. Sweeney's 
plan to conduct a listening tour throughout Indian Country on this and 
other issues, and plans to urge BIA to extend its comment period to 
accommodate this dialogue.
DOI Reorganization
    USET SPF is deeply concerned that, despite the recent initiation of 
consultation with Tribal Nations, the reorganization of the Department 
of the Interior is moving forward in the absence of Tribal 
consultation. The Secretary has yet to significantly consult with or 
provide much detail to Tribal Nations on the reorganization of the 
Department, although we are aware of meetings held with federal 
employees and other units of government. Yet, we note that new DOI 
regions have been proposed and there is $900,000 set aside in the BIA 
Budget Request for its share of initial pre-planning responsibilities 
(with the knowledge that this figure will increase significantly in the 
out years).
    We are further concerned to see what appears to be additional 
reorganization activities taking place at the staff level--again, 
without Tribal consultation. A number of Senior Executive Service 
employees from the BIA and Office of Trust Services seem to have been 
relocated and reassigned. While we understand that the Department is 
afforded the latitude to make employment decisions, Tribal Nations 
should be consulted as senior staff are reassigned--particularly at the 
regional level.
    While USET SPF Tribal Nations acknowledge that there may 
unnecessary levels of bureaucracy and redundancies at the DOI, any 
eliminations or changes affecting Indian Country must be accomplished 
in fulfillment of the federal trust responsibility, and with the advice 
and guidance of Tribal Nations. With the appointment of the ASIA, we 
remain hopeful that the Department will take the opportunity to 
modernize the federal government and execution of the federal trust 
responsibility in a way that upholds the obligations of our sacred 
government-to-government relationship and promotes the full exercise of 
Tribal sovereignty.
Commitment to Protecting and Increasing BIA Resources
    Because of our history and unique relationship with the United 
States, the trust obligation of the federal government to Native 
peoples, as reflected in the federal budget, is fundamentally different 
from ordinary discretionary spending. Inadequate funding to Indian 
Country needs to be viewed as unfilled treaty and trust obligations. 
However, for Fiscal Years (FY) 2018 and 2019, the Administration has 
requested deep reductions to nearly every line item within the BIA 
budget. We further note the long-lasting effects of continued 
underfunding for federal Indian programs. The FY 2019 Budget Request 
fails to reflect a prioritization of trust obligations and the related 
promises that are at the core of our special and unique relationship.
    In reducing, eliminating, and calling into question the 
constitutionality of federal Indian programs, this Administration is 
ignoring and undermining its trust responsibility to Tribal Nations. 
Moreover, the message that this sends to all American citizens is one 
of disregard and dishonor, further exacerbating the challenges we face 
in educating the nation on our history, sovereignty, and the continued 
obligation to Tribal Nations. We are hopeful that under Ms. Sweeney's 
leadership, future Budget Requests for BIA will be more reflective of a 
commitment to honor its obligations and promises to Indian Country.
Trust Modernization
    USET SPF, along with other Tribal organizations and Nations, is 
engaged in an effort to modernize the relationship between the federal 
government and Tribal Nations. The current trust model is broken and 
based on faulty and antiquated assumptions from the 19th Century that 
Indian people were incompetent to handle their own affairs and that 
Tribal Nations were anachronistic and would gradually disappear. It is 
time for a new model that reflects a truly diplomatic, nation-to-nation 
relationship between the U.S. and Tribal Nations, and that empowers 
each Tribal Nation to define its own path. This mission should inform 
each action taken by this Administration affecting Tribal Nations.
    Our Trust Modernization Workgroup has identified 5 governing 
principles with which to engage in modernizing the trust relationship. 
They are as follows:

        1. Strengthen Trust Standards--Adopt Implementing Laws and 
        Regulations.

        2. Strengthen Tribal Sovereignty--Empower Each Tribe to Define 
        its Path.

        3. Strengthen Federal Management--For Trust Assets and Programs 
        Still Subject to Federal Control.

        4. Strengthen Federal-Tribal Relations--One Table with Two 
        Chairs.

        5. Strengthen Federal Funding and Improve Its Efficiency--A 
        Pillar of the Trust Responsibility.

    Each of these principles addresses long-standing issues with the 
current trust model and was developed after the deliberation of Tribal 
leaders. Our Workgroup has also devised a number of short and long-term 
strategies aimed at realizing these principles. We look forward to the 
opportunity to discuss them with the incoming ASIA.
Executive Order on U.S.--Tribal Relations
    Over the last several decades, every President, regardless of 
party, has issued executive orders regarding the federal trust 
responsibility and the federal government's relationship with Tribal 
Nations. We urge the incoming ASIA to assist in the issuance of an 
executive order from President Trump that: (1.) Reaffirms essential 
trust responsibilities for all federal agencies; (2.) Affirms the 
``best interests'' determination in favor of Tribal Nations in all 
environmental and administrative determinations; and (3.) Outlining the 
placement of senior level Tribal Liaison positions across the 
Administration to ensure that every department/agency is executing its 
trust obligations to the greatest extent. This order should speak to 
and confirm the unique and special nature our nation-to-nation 
relationship, its sacred responsibility to fulfill its treaty and trust 
obligations to Tribal Nations, and recognition, and support for the 
principles of our inherent sovereign authorities and rights. An 
executive order of this nature would set the tone for all federal 
agency conduct and provide certainty in the federal government's 
approach to decisions affecting Indian Country. Consistency and 
commitment in the execution of the federal trust responsibility would 
likely reduce conflict between the federal government and Tribal 
Nations, as well as the number of trust mismanagement lawsuits facing 
the federal government.
Conclusion
    USET SPF thanks you for your time and consideration regarding the 
nomination for ASIA. USET SPF supports Ms. Tara Mac Lean Sweeney for 
this critical leadership role. We welcome her experience, commitment to 
self-governance, and dedication to the trust responsibility, as the 
Administration seeks to articulate a formal policy in relation to 
Tribal Nations and Tribal sovereignty. We urge her swift confirmation, 
so that she may begin her work without delay.
        Sincerely,
       Kirk Francis Kitcki A. Carroll, President/Executive 
                                                   Director
                                 ______
                                 
                        Voice of the Arctic Inupiat (VOICE)
                                                        May 3, 2018
Hon. John Hoeven, Chairman;
Hon. Tom Udall, Vice Chairman,
Senate Committee on Indian Affairs,
Washington, DC.

Dear Chairman Hoeven and Vice Chairman Udall:

    I write on behalf of Voice of the Arctic Inupiat (VOICE) to express 
our strong support for the nomination of Tara Sweeney as Assistant 
Secretary for Indian Affairs.
    VOICE is a 501(c)4 non-profit corporation whose twenty members 
include representatives from Alaska's North Slope tribal councils, 
municipal governments, Alaska Native Corporations, a regional non-
profit, and the tribal college from the North Slope of Alaska. 
Together, we represent the broad leadership of the North Slope of 
Alaska. VOICE was established in 2015 with the purpose of providing 
local advocacy and engagement from the Inupiat people to state, 
federal, and international forums addressing Arctic issues.
    Throughout her career, Tara has worked tirelessly on behalf of the 
Inupiat people in Alaska. Through her work at the Arctic Economic 
Council and Arctic Slope Regional Corporation, she has been a champion 
of responsible resource development, recognizing its potential to 
strengthen local economies in rural communities; in her role at the 
Alaska Federation of Natives, she has promoted tribal self-
determination and encouraged Alaska Native communities to advocate on 
their own behalf; and advanced cooperation and coordination among 
Arctic States through her work with the Inuit Circumpolar Council.
    We know Tara to be an effective leader who has gained much relevant 
experience through her influential positions locally as well as on the 
state and international stage. Tara excels at stakeholder engagement; 
her ability to work beyond the ``silos,'' the bureaucratic boundaries 
between federal agencies, state agencies, local user groups, and 
regional and local governments and entities is extraordinary and would 
be a great resource to the Secretary and Department of Interior as a 
whole.
    Tara has been a great advocate for Voice of the Arctic Inupiat, and 
her work on behalf of Alaska Native peoples cannot be understated. I am 
proud to recommend her, and we urge the swift consideration of Ms. 
Sweeney for the position of Assistant Secretary for Indian Affairs in 
your committee. I thank you for your consideration of this letter; I 
look forward to working with Tara in her new role as Assistant 
Secretary for Indian Affairs on issues important to our communities.
        Taikuu,
                                     Sayers Tuzroyluk, Sr.,
                                                          President
                                 ______
                                 
                                 ANCSA Regional Association
                                                  February 10, 2017
Hon. Lisa Murkowski,
United States Senate,
Senate Hart Office Building,
Washington, DC.

Hon. Don Young,
United States House of Representatives,
Rayburn House Office Building,
Washington, DC.

Hon. Daniel Sullivan,
United States Senate,
Senate Hart Office Building,
Washington, DC.
   Re: Support for Tara Katuk Sweeney Assistant Secretary, 
                 Indian Affairs U.S. Department of Interior

Dear Senator Murkowski, Senator Sullivan, and Congressman Young:

    On behalf of the ANCSA Regional Association (the Association), we 
write to express our unanimous support for the appointment of Tara 
Sweeney for Assistant Secretary--Indian Affairs, for the Department of 
the Interior. The ANCSA Regional Association represents the Chief 
Executive Officers of the twelve land-based regional Alaska Native 
Corporations (ANCs), as well as the President of the Alaska Federation 
of Natives. Our corporations are owned by over 121,000 Alaska Native 
people and were formed under the Alaska Native Claims Settlement Act of 
1971, 43 U.S.C.  1601, et. seq. (ANCSA). Our mission is to promote and 
foster the continued growth and economic strength of the Alaska Native 
Regional Corporations on behalf of our shareholders. When measured 
against the top 49 Alaska-owned companies, ANCs account for 75 percent 
of the revenue earned, 69 percent of Alaskan jobs, and 86 percent of 
the global employment. Making up 20 of the top 49 Alaska-owned 
companies, Alaska Native Corporations have become an economic engine of 
Alaska.
    The Association has worked with Tara for many years on issues 
facing Alaska Natives and American Indians, and feel she is 
particularly well qualified for this appointment given her more than 
ten years' experience in leadership positions and roles in private, 
public and non-profit organizations; and active engagement in Native 
American policy development and advocacy. Additionally, Tara has nearly 
20 years of leadership experience with Alaska's largest privately owned 
company, Arctic Slope Regional Corporation (ASRC), currently serving as 
their Executive Vice President, External Affairs.
    Tara also serves as the Chair of the Arctic Economic Council. She 
was elected to serve as chair by the eight Arctic states and six 
indigenous permanent participants. Tara has led many of our nation's 
efforts to form international arctic policy as it relates to economic 
development. Furthermore, Tara has served as a member of the board of 
the Alaska Federation of Natives since 2009 and as co-chair in 2013-
2014, leading that organization's reorganization efforts, redrafting 
bylaws and other significant changes.
    Tara is a dedicated, hard-working and fearless leader focused on 
providing value and real results across local, national and 
international boundaries. Her passion shows through in Senator 
Murkowski, Senator Sullivan, and Congressman Young every challenge she 
faces. She understands how important the economic and energy sector is 
to sustainable Native communities and the continued way of life in 
rural America. She is very supportive of public-private partnerships to 
stretch limited federal resources. She understands the high-cost of 
living in remote rural Alaska and on the reservations. She also 
understands the delicate balance of protecting and harvesting wild game 
on federal public lands. She is a hunter herself and continues the long 
tradition in the Arctic of subsistence hunting and fishing.
    The ANCSA Regional Association strongly supports Tara's appointment 
as the next Assistant Secretary--Indian Affairs, for the Department of 
the Interior. If we can provide additional information, please contact 
us.
        Sincerely,
 Gabriel Kompkoff, Chair; Kim Reitmeier, Executive Director
                                 ______
                                 
                         Alaska Federation of Natives (AFN)
                                                        May 3, 2018
Hon. John Hoeven, Chairman;
Hon. Tom Udall, Vice Chairman,
Senate Committee on Indian Affairs,
Washington, DC.
Re: Support for Tara Katuk Sweeney for Assistant Secretary 
                                         for Indian Affairs

Dear Chairman Hoeven and Vice Chairman Udall:

    On behalf of the Alaska Federation of Natives (AFN), I am writing 
to express our unqualified support for the confirmation of Tara Sweeney 
for Assistant Secretary--Indian Affairs, Department of the Interior. 
AFN represents more than 140,000 Alaska Natives, including 186 
federally recognized tribes, 171 village corporations, 12 regional 
corporations, and 12 regional nonprofit and tribal consortiums that 
contract and compact to run federal and state programs. Our mission is 
to enhance and promote the cultural, economic and political voice of 
the entire Alaska Native community.
    We have worked with Tara for many years and have never seen a more 
dedicated individual who is focused on real results. She brings a 
unique skill set, with a deep appreciation for the importance of the 
economic and energy sector to sustainable Native communities and the 
continued way of life in rural America.
    She understands the high cost of living in remote rural Alaska and 
on the reservations and the delicate balance of protecting and 
harvesting wild game on federal public lands. She is a hunter herself 
and continues the long tradition in the Arctic of subsistence hunting 
and fishing.
    Tara is well respected and knows how to build coalitions and lead 
teams to accomplish directions set by the Administration. With her 
strong background and knowledge of Alaska Native rights, cultural 
values, and economic sustainability, she will provide excellent advice 
and counsel to the Secretary of Interior and the White House.
    Tara's leadership experience at Arctic Slope Regional Corporation 
and as former AFN co-chair and board member gives her a strong 
understanding of Native affairs both at the local, regional and 
national level. She will be a staunch supporter of the Administration 
and the Native people of our country.
    AFN urges the swift consideration of Ms. Sweeney for the position 
of Assistant Secretary for Indian Affairs in your committee, and we 
look forward to working with her.
        Sincerely,
                                     Julie Kitka, President
                                 ______
                                 
 Central Council of the Tlingit and Haida Indian Tribes of 
                                                     Alaska
                                                        May 3, 2018
Hon. John Hoeven, Chairman;
Hon. Tom Udall, Vice Chairman,
Senate Committee on Indian Affairs,
Washington, DC.
Re: Support for Tara Katuk Sweeney for Assistant Secretary 
                                         for Indian Affairs

Dear Chairman Hoeven and Vice Chairman Udall:

    The Central Council of the Tlingit and Haida Indian Tribes of 
Alaska writes to express its strong support for the nomination of Ms. 
Tara Sweeney as Assistant Secretary for Indian Affairs.
    Throughout her many years of work on behalf of the Inupiat 
shareholders of the Arctic Slope Regional Corporation in her home state 
of Alaska and all Alaska Natives, Ms. Sweeney has established herself 
as an expert in and a proponent of issues with tribal government 
implications well suited to this position that is the face of the 
Federal Government's trust responsibility to and government-to-
government relationship with tribal governments.
    Ms. Sweeney is an experienced leader, having held executive 
positions within Alaska through her roles at the Arctic Slope Regional 
Corporation and the Alaska Federation of Natives, within Indian Country 
through her work with the National Congress of American Indians, and 
internationally as Chair of the Arctic Economic Council.
    We urge the swift consideration of Ms. Sweeney for the position of 
Assistant Secretary for Indian Affairs in your Committee, and we look 
forward to working with her on issues important to Indian Country.
    Thank you for your consideration of the Tribe's views.
        Sincerely,
                             Richard J. Peterson, President
                                 ______
                                 
                                 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 ______
                                 
                                             March 12, 2018
Ed McDonnell,
Alternate Designated Agency Ethics Official,
U.S. Department of the Interior,
Washington, DC.

Dear Mr. McDonnell:

    The purpose of this Jetter is to describe the steps that I will 
take to avoid any actual or apparent conflict of interest in the event 
that I am confirmed for the position of Assistant Secretary--Indian 
Affairs of the Department of the Interior.
    As required by 18 U.S.C.  208(a), I will not participate 
personally and substantially in any particular matter in which I know 
that I have a financial interest directly and predictably affected by 
the matter, or in which I know that a person whose interests are 
imputed to me has a financial interest directly and predictably 
affected by the matter, unless I first obtain a written waiver, 
pursuant to 18 U.S.C.  208(b)(l), or qualify for a regulatory 
exemption, pursuant to 18 U .S.C.  208(b)(2), or statutory exemption, 
pursuant to 18 U .S.C.  208(b)(4). I understand that the interests of 
the following persons are imputed to me: any spouse or minor child of 
mine; any general partner of a partnership in which I am a limited or 
general partner; any organization in which I serve as officer, 
director, trustee, general partner or employee; and any person or 
organization with which I am negotiating or have an arrangement 
concerning prospective employment.
    Upon confirmation, I will resign from my position with the Arctic 
Slope Regional Corporation. Following my departure, the Arctic Slope 
Regional Corporation will issue me payments pursuant to the Arctic 
Slope Regional Corporation Employee Incentive Program and the Arctic 
Slope Regional Corporation Long-Term Incentive Plan. I will not accept 
any such payments and will forfeit them unless I receive those amounts 
before I assume the duties of the position of Assistant Secretary- 
Indian Affairs. For a period of two years from the date on which I 
receive these payments, I will not participate personally and 
substantially in any particular matter involving specific parties in 
which I know the Arctic Slope Regional Corporation is a party or 
represents a party, unless I first receive a written waiver pursuant to 
C.F.R.  2635.503 (c).
    I recently resigned my position with the Arctic Economic Council 
and the Ted Stevens Foundation. For a period of one year after my 
resignation from each of these entities, I will not participate 
personally and substantially in any particular matter involving 
specific parties in which I know that entity is a party or represents a 
party, unless I am first authorized to participate, pursuant to 5 
C.F.R.  2635.502(d).
    I presently own inherited shares in the Ukpeagvik Inupiat 
Corporation. Within 90 days of my confirmation, I will divest these 
shares by transferring them to my non-minor, dependent children. Until 
I complete the transfer of these shares, I will not participate 
personally and substantially in any particular matter that to my 
knowledge has a direct and predictable effect on the financial 
interests of the Ukpeagvik Inupiat Corporation, unless I first obtain a 
written waiver, pursuant to 18 U .S.C.  208(b)(1), or qualify for a 
regulatory exemption, pursuant to 18 U.S.C.  208(b)(2), or statutory 
exemption, pursuant to 18 U.S.C.  208(b)(4). Once the shares have been 
transferred, I will not participate personally and substantially in any 
particular matter involving specific parties that to my knowledge is 
likely to have a direct and predictable effect on the financial 
interests of the Ukpeagvik Inupiat Corporation, unless I am first 
authorized to participate, pursuant to 5 C.F.R.  2635.502(d).
    I will request a written waiver pursuant to 18 U .S.C.  208(b)(1) 
regarding my inherited financial interest in the Arctic Slope Regional 
Corporation. Until I have obtained such a waiver, I will not 
participate personally and substantially in any particular matter that 
to my knowledge has a direct and predictable effect on the financial 
interests of this entity.
    If I have a managed account or otherwise use the services of an 
investment professional during my appointment, I will ensure that the 
account manager or investment professional obtains my prior approval on 
a case-by-case basis for the purchase of any assets other than cash, 
cash equivalents, investment funds that qualify for the exemption at 5 
C.F.R.  2640.201 (a), or obligations of the United States.
    If I am confirmed as Assistant Secretary--Indian Affairs of the 
Department of the Interior, I am aware that I am prohibited by 30 
U.S.C.  1211 (f) from holding a financial interest in any surface or 
underground coal mining operation. Additionally, I am aware that my 
position is subject to the prohibitions against holding any financial 
interest in federal lands or resources administered or controlled by 
the Department of the Interior extended to me by supplemental 
regulation 5 C.F.R.  3501.103.
    I understand that as an appointee I will be required to sign the 
Ethics Pledge (Exec. Order no. 13 770) and that I will be bound by the 
requirements and restrictions therein in addition to the commitments I 
have made in this ethics agreement.
    I will meet in person with you during the first week of my service 
in the position of Assistant Secretary--Indian Affairs of the 
Department of the Interior in order to complete the initial ethics 
briefing required under 5 C.F.R.  2638.305. Within 90 days of my 
confirmation, I will document my compliance with this ethics agreement 
by notifying you in writing when I have completed the steps described 
in this ethics agreement.
    I have been advised that this ethics agreement will be posted 
publicly, consistent with 5 U.S.C.  552, on the website of the U.S. 
Office of Government Ethics with ethics agreements of other 
Presidential nominees who file public financial disclosure reports.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John Hoeven to 
                         Tara Mac Lean Sweeney
Tribal Colleges and Universities
    Question 1. Thirty-five Tribal Colleges and Universities receive 
funding from the Department of the Interior. These colleges are 
recognized as catalysts in their communities, both in terms of higher 
education access and economic development.
    If confirmed, how would you support and use Tribal Colleges to 
create economic opportunity and jobs in Indian Country?
    Answer. Education is crucial to creating and fostering economic 
opportunities across Indian country. If confirmed, I look forward to 
working with the BIE Director to assess the existing needs within our 
tribal colleges and universities and consulting with tribes to 
determine how best to support these entities.
Indian Land Fractionation
    Question 2. As part of the Cobell Settlement, $1.9 billion was set 
aside for the Land Buy-Back Program. This program was designed to 
purchase fractional interests in trust or restricted Indian land from 
willing sellers at fair market value to reduce the amount of 
fractionated Indian land. The program is set to end in November, 2022.
    In recent briefings for the Committee by Interior officials, the 
officials have indicated that the issue of fractionated Indian 
interests will continue to exponentially increase after the program 
ends.
    If confirmed, how would you address fractionated lands, once the 
Land Buy-Back Program ends?
    Answer. I understand fractionated interests are a deterrent to 
economic development opportunities across Indian country. If confirmed, 
I look forward to being briefed on the current status of the program. 
Robust tribal consultation will be crucial in determining any path 
forward.
Safety at BIE Schools
    Question 3. In 2016, the Assistant Inspector General for the 
Department of the Interior sent a memo to the then-acting Bureau of 
Indian Education (BIE) Director, regarding the quality of measures in 
place at BIE schools to prevent violence against both students and 
staff from internal and external threats.
    In their reviews, they found that there is no guidance for required 
safety measures at BIE schools.
    If confirmed, how would you ensure that these schools are safe?

    Question 3a. Will you commit to ensuring that the BIE will adopt 
all measures needed to ensure that children are safe at these schools?
    Answer. I strongly believe that students within the BIE system 
should have access to safe learning environments. I am committed to 
ensuring our schools are safe from threats and violence. If confirmed 
as Assistant Secretary for Indian Affairs, I will make it a priority to 
be briefed on the status of implementing the OIG's recommendations and 
will consult with tribes to ensure these measures meet the needs of 
both students and staff.
    As part of its recommendations in its 2018 Report, the Department 
of the Interior Office of Inspector General suggests that there should 
be more oversight of tribally-operated schools, when it comes to 
ensuring the safety and security of students. The 2018 Report states:

        ``BIE Budget and Finance, whose grant specialists conduct 
        reviews of tribally controlled schools, does not have clear 
        guidelines regarding oversight roles and responsibilities 
        because BIE leadership bas not created long-term guidance.''

    Question 3b. Will you commit to being personally involved and 
support the BIE in improving administration, oversight, fiscal 
responsibility and other management components as recommended by the 
Office of Inspector General or as needed to address the educational 
needs of Indian children?
    Answer. Yes.
Indian Gaming
    Question 4. The Indian Gaming Regulatory Act sets forth standards 
and requirements for triba l gaming on Indian lands. For example, the 
Secretary of the Interior reviews and makes decisions on tribal- state 
compacts. It also authorizes the compacts to go into effect, under 
certain circumstances, to the extent it is consistent with federal law. 
In some cases, it is silent on certain matters such as revenue sharing 
in tribal-state compacts.
    These compacts represent negotiations between tribes and states. 
However, tribes have expressed concerns that revenue sharing creates an 
unfair bargaining position for tribes.
    If confirmed, how will you balance state and tribal interests in 
reviewing tribal-state compacts?
    Answer. I am committed to following the law as set forth by the 
Indian Gaming Regulatory Act. Tribal consultation and state and local 
engagement are key components of the law. If confirmed, I will take a 
balanced approach through tribal consultation, stakeholder engagement, 
assembling necessary data, and providing that information to the 
leadership of the Department to ensure that we make can make informed 
decisions with all available information.
Tribal Relations
    Question 5. At times, Indian tribal interests may conflict with 
other tribes' interests. This conflict often arises in land-into-trust 
applications.
    If confirmed, how will you reconcile tribal interests when there is 
a conflict?
    Answer. If confirmed, my role as Assistant Secretary is to advocate 
for self-determination policies on behalf of Indian country. That also 
includes balancing aligned and conflicting tribal interests. Taking a 
balanced approach through local engagement and tribal consultation is 
the cornerstone of self-determination.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                         Tara Mac Lean Sweeney
    Question 1. The federal courts have long recognized a unique trust 
relationship between the Federal Government in general--and the 
Department of the interior in particular--and federally recognized 
Indian Tribes. How would you characterize that relationship?
    Answer. As an Alaska Native, I recognize the federal government's 
relationship with tribes is rooted in its responsibility to promote 
tribal sovereignty and self-determination. If confirmed, my role as 
Assistant Secretary for Indian Affairs is to be an advocate for Indian 
country, and uphold the trust responsibility the Federal Government has 
to tribes. Consultation is a critical part of our government-to-
government relationship and a responsibility I take seriously.

    Question 2. Regarding this trust status, in a situation where the 
Department of the Interior has to make a decision that would either 
assist the economic position of a Tribe or assist the economic 
development of a private entity, how would you balance those interests?
    Answer. If confirmed, my role as Assistant Secretary is to advocate 
for self-determination policies on behalf of Indian country. That also 
includes balancing aligned and conflicting interests. Taking a balanced 
approach through local engagement and tribal consultation is the 
cornerstone to self-determination.

    Question 3. What is your view of the recent revisions to the 
federal recognition of Indian Tribes regulations? Do you see any need 
to improve the current administrative process for reviewing recognition 
petitions? If so, how?
    Answer. I have not been briefed on how the changes to the federal 
recognition process in 2015 have improved or hindered ongoing tribal 
recognition efforts. If confirmed, I commit to evaluating and assessing 
the overall process.

    Question 4. What is your position regarding the Carcieri decision? 
Do you support legislation to overturn that U.S. Supreme Court 
decision?
    Answer. The Department is bound by the decisions of the Supreme 
Court. As I am not at the Department, I cannot provide an official 
position on legislation. I respect the role of the Congress, which has 
the plenary authority over Indian Affairs matters, and appreciate its 
power to legislate on matters pertaining to Indian country.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                         Tara Mac Lean Sweeney
    Question 1. Last December Congress passed a controversial provision 
to open up the Arctic National Wildlife Refuge for oil and gas 
development. I understand you have a long history of lobbying for 
Arctic Refuge drilling, including being employed as the executive vice 
president of the Arctic Slope Regional Corporation. I further 
understand you are a shareholder in the Arctic Slope Regional 
Corporation's oil and gas development interests within the Arctic 
National Refuge.
    Ms. Sweeney, if confirmed as Assistant Secretary, will you resign 
your job with the Corporation and will recuse yourself from 
participation in any matters involving the Corporation for two years?
    Answer. Yes.

    Question 1a. Ms. Sweeney, during your testimony before the Senate 
Indian Affairs Committee you indicated that you would not request a 
written waiver from federal conflict of interest law which would 
otherwise allow you to participate in matters affecting your inherited 
financial interest in the Arctic Slope Regional Corporation, is that 
accurate?
    Answer. The financial interest for which I will request a limited 
waiver under 18 U.S.C.  208(b)(l)--my inherited Class A shares in 
ASRC--is identical to a financial interest--my Class C shares in. 
ASRC--that Congress has explicitly exempted from the prohibitions of 18 
U.S.C.  208 in 18 U.S.C.  208(b)(4). Due to the lack of clarity 
regarding the applicability of the 18 U.S.C.  208(b)(4) exemption to 
my inherited Class A shares and as set forth in my Ethics Agreement, I 
will request a limited waiver so that my inherited Class A shares will 
be treated the same as my Class C shares in the ASRC. Even if this 
limited waiver is granted, I will be restricted from participating in 
particular matters at the Department in which the ASRC is a specific 
party.
    It is important as a threshold matter to note that Alaska Native 
Corporation (ANC) shares are unlike shares of publicly traded 
companies. One cannot simply divest and reacquire ANC shares. Congress 
has recognized the unique status of these interests by creating a 
statutory exemption in 18 U.S.C.  208(b)(4) from financial conflict of 
interest laws for interests in certain ANC shares. This exemption 
reflects the fact that it is fundamentally unfair to expect an entire 
class of indigenous Americans, and in this instance, me specifically, 
to divest a birthright which I am lawfully permitted to have, in order 
to serve the American public.
    I currently own Class C shares in the ASRC. These shares were 
issued to me upon my enrollment in ASRC based on my status as a citizen 
of the United States who is of one-fourth degree or more Alaska Indian 
(including Tsimshian Indians not enrolled in the Metlaktla Indian 
Community) Eskimo, or Aleut blood, or combination thereof; who was born 
after December 18, 1971 to a parent who had been enrolled pursuant to 
ANCSA in the Arctic Slope Region of Alaska; and who was, at the time of 
issuance, a resident of the United States. As set forth in 18 U.S.C.  
208(b)(4), my Class C Shares in the ASRC qualify for a statutory 
birthright exemption from the financial conflict of interest 
prohibition of 18 U.S.C. 208(a). Under this exemption, I am prohibited 
from participating in particular matter at the Department in which the 
ASRC is a specific party.
    I also currently own Class A shares in the ASRC, which I inherited 
from my mother and grandmother. While the 18 U.S.C.  208(b)(4) 
exemption applies to my Class C shares, the applicability of this 
exemption to my Class A shares is unsettled, because those shares were 
acquired via inheritance from my mother and grandmother. As a result, I 
will request a limited waiver so that my inherited Class A shares will 
be treated the same as my Class C shares in the ASRC, and, even if this 
limited waiver is granted, I will be restricted from participating in 
particular matters at the Department in which the ASRC is a specific 
party.

    Question 2. Not all Alaska Natives are shareholders in the Arctic 
Regional Corporation and not all support oil and gas drilling in the 
Arctic National Wildlife Refuge. If confirmed as Assistant Secretary 
for Indian Affairs, you will be responsible for representing the best 
interests of all Alaska Natives, not just those of one Regional 
Corporation.
    Ms. Sweeney, how will you balance the quality of life interests of 
the Gwich'in, who depend upon the caribou herds that migrate to the 
coastal plan for their traditional way of life, against those of the 
Arctic Slope Regional Corporation, which seeks the economic benefits of 
oil and gas development?
    Answer. If confirmed, my role as Assistant Secretary is to advocate 
for self-determination policies on behalf of Indian country. That also 
includes balancing aligned and conflicting tribal interests. Taking a 
balanced approach through local engagement and tribal consultation is 
cornerstone to self-determination. In this specific instance, it means 
consultation with the respective Gwich'in tribal governments in 
addition to the Native Village of Kaktovik traditional government.

    Question 2a. Ms. Sweeney, how do you think an oil spill on 
Corporation lands in the fragile North Slope tundra would adversely 
impact the birthright of future Alaska Natives?
    Answer. The North Slope is the region where my family and larger 
Ifiupiat community have traversed, survived, and thrived for thousands 
of years. This region defines who I am as a person and my people have a 
deep connection to the land and environment. My people also have a long 
history with oil, specifically when my great-grandfather discovered 
natural oil seeps near Smith Bay in the early 1920s and shared that 
discovery with the Federal Government.
    To understand my answer, it is important to understand the 
rationale behind the answer. When oil was first discovered in my home 
region, the North Slope, the people of the North Slope or Arctic Slope, 
opposed development. Despite this opposition, the Federal government 
continued to carve out large swaths of land and leasing areas--creating 
oil and gas enclaves on federal and what would become state lands.
    Faced with an imposed reality by the federal government, North 
Slope leaders recognized that if we were not an organized people, 
development would happen to us, despite us. Ergo, our fight for self-
determination. Early leadership fostered the school of thought that 
nothing happens to us without us. That philosophy has guided our region 
since the first discovery of oil on the North Slope.
    As a result, we incorporated our county form of government, the 
North Slope Borough, to ensure we protected our traditional and 
cultural practices, including our access to fish, wildlife, and marine 
mammals. Often times the home-rule North Slope Borough, through its 
planning, zoning, and permitting powers, raised the environmental 
compliance standards above the federal threshold. Our local and 
regional businesses implemented capacity building measures with our 
residents to ensure that if there was an incident related to 
development, our people were the first responders. Who better to 
respond to ensure protection and access to local food sources than 
those dependent upon those sources? Commitment to safety is part of our 
traditional and business cultures.
    Through the resiliency of the people of the North Slope and 
capacity throughout our communities, there are sufficient safeguards 
and protective measures and practices in place to ensure the 
perpetuation and care of the land that defines us, regardless of land 
title or ownership.

    Question 2b. Ms. Sweeney, given your background promoting 
controversial resource extraction projects such as drilling the Arctic 
Refuge, support the Pebble Mine in Bristol Bay, and continuing the 
Donlin Gold Mine, all of which pit different tribal interests against 
each other, how will you as Assistant Secretary represent and balance 
the needs of all impacted tribes?
    Answer. My professional background and duties to ASRC are rooted in 
advocacy of self- determination. To paint those efforts with a broad 
brush for development projects in Alaska is inaccurate. To the extent 
that Indian Affairs has jurisdiction over development projects, I will 
follow the law. If projects are outside my jurisdiction but impact 
tribal and/or competing tribal interests, my role as Assistant 
Secretary, if confirmed, is to take a balanced approach through tribal 
consultation, stakeholder engagement, assembling necessary data and 
providing that information to the leadership of the Department to 
ensure the agency or department of jurisdiction can make an informed 
decision.

    Question 2c. Ms. Sweeney, we also understand that there are lease 
agreements for ASRC lands in the Arctic Refuge with BP and Chevron/
Texaco. Again, to make sure that we understand the potential conflicts 
that could come into plan with any BIA work related to these companies, 
please describe the details of these lease agreements and whether you 
think any of these arrangements will require you to recuse yourself 
from any matter that potentially involves BP or Chevron.
    Answer. The details of those arrangements are proprietary and the 
intellectual property of ASRC. Therefore, I do not have access to this 
information. I will comply with my ethics agreement and consult with 
OGE and/or DAEO on appropriate matters that may arise outside my 
agreement.

    Question 3. For the last 15 years, I have been working with the 
Spokane Tribe to get the Spokane Tribe of Indians of the Spokane 
Reservation Equitable Compensation Act signed into law. This bill would 
provide the Tribe just and equitable compensation for the thousands of 
acres that were lost when the Grand Coulee Dam was constructed in the 
1930s. The legislation is non-controversial, has passed out of this 
Committee almost every Congress and has passed both the House and the 
Senate, but unfortunately, not at the same time.
    The Tribe has made significant sacrifices to get the bill across 
the finish line. This is why I was thrilled to hear Secretary Zinke 
visited the Spokane Tribe and pledged to support compensation for the 
Tribe. His exact words were ``I support getting to a conclusion on 
this'' and ``This is one area where Maria Cantwell and I can work 
together.''
    Ms. Sweeney, do you support the Secretary's Statement?

    Question 3a. Ms. Sweeney, currently, the Department of Interior is 
working with the Department of Justice to determine if the Spokane 
Tribe of Indians of the Spokane Reservation Equitable Compensation Act 
qualifies as an Indian water rights claim in accordance to the letter 
sent to Attorney General Sessions and Secretary Zinke by House Natural 
Resources Chairman Bishop on April 27, 2017. It is critical this 
process is completed expeditiously. Can you assure me that you will 
support this process moving forward expeditiously?
    Answer. I am not familiar with the bill or the Secretary's 
statements but understand its importance to both you and the Spokane 
Tribe. If confirmed, I commit to learning more and will work with you, 
the Congress, and the Department on this matter.

    Question 4. Many tribes in Alaska and across the country are 
experiencing negative impacts from climate change. These range from 
changes in subsistence and wildlife patterns, to coastal erosion 
forcing community relocation in Alaska, and droughts in the southwest.
    Ms. Sweeney, what do you see as BIA's role in the broader 
conversation about climate change?

    Question 4a. Ms. Sweeney, how important is it in you r view that 
DOI or any federal agencies take into account traditional ecological 
knowledge into its decisionmaking?

    Question 4b. Ms. Sweeney, if tribes are opposed to actions that the 
federal government is taking, including actions regarding public lands, 
how will you help them have a meaningful voice and roll in any 
processes and accurately carry their message to the administration?
    Answer. As I indicated at the hearing, my role as Assistant 
Secretary for Indian Affairs will be to support tribal sovereignty and 
self-determination and be an advocate for Indian country. Tribal 
consultation will be essential in determining how best to meet the 
varying needs of individual tribes across the country.

    Question 5. A number of Tribes from Washington state and around the 
country have expressed concern over the Department of Interior's review 
of fee-to-trust regulations (25 C.F.R. 151). My tribal constituents 
fear that the Department's proposal will make it increasingly difficult 
for tribal nations to restore their homelands and place land into trust 
status.
    Ms. Sweeney, what is your understanding of the fee-to-trust 
process?

    Question 5a. Ms. Sweeney, if nominated, will you review the actions 
the Department of Interior has taken thus far to revise the process?

    Question 5b. Ms. Sweeney, how will you and the Department consult 
with Tribes on potential changes to the fee-to-trust process?
    Answer. I am generally aware of the Department's process for taking 
lands into trust. Because I am not at the Department, however, I have 
not briefed on any proposed changes to the Part 151 regulations. If 
confirmed, I will commit to learning more about this issue and look 
forward to consulting with tribes on this important responsibility.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                         Tara Mac Lean Sweeney
Ethics
    Question 1. Your Ethics Agreement states that ``[i]f I am confirmed 
as Assistant Secretary--Indian Affairs of the Department of the 
Interior, I am aware that I am prohibited by 30 U.S.C. 121 l(f) from 
holding a financial interest in any surface or underground coal mining 
operation'' (emphasis added). 30 U.S.C.  121 l(f) provides that ``[n]o 
employee of the Office (of Surface Mining Reclamation and Enforcement] 
or any other Federal employee performing any function or duty under 
this chapter shall have a direct or indirect financial interest in 
underground or surface coal mining operations'' (emphasis added). Your 
signed agreement only indicates that you are aware of the federal 
prohibition, but it does not indicate how you will comply with it.

    a.Please attest that you will comply with 30 U.S.C.  121l(f) if 
confirmed to the position of Assistant Secretary.

    b.Please explain how you will comply with 30 U.S.C.  1211(f) if 
confirmed as Assistant Secretary.

    c.Please provide the rationale used by the Office of Government 
Ethics (``OGE'') or your Designated Agency Ethics Official to determine 
your Ethics Agreement complies with 30 U.S.C.  1211(f.).

    Answer. My Ethics Agreement was reviewed and approved by the 
Alternate Designated Agency Ethics Official (DAEO) for the Department 
of the Interior and the Office of Government Ethics as compliant with 
applicable ethics requirements. I will comply with the requirements 30 
U.S.C.  121l(t) and its implementing regulations 30 C.F.R. Part 706, 
if confirmed to the position of Assistant Secretary, by working with 
the Departmental Ethics Office and recusing myself from performing any 
functions or duties under 30 U.S.C. Chapter 25.

    Question 2. Your ethics agreement provides that ``you will request 
a waiver pursuant to 18 U.S.C.  208(b)(l) regarding [your] inherited 
financial interest in the Arctic Regional Corporation'' (emphasis 
added). That particular statutory waiver provides that an employee may 
participate personally and substantially in a particular matter in 
which she has a financial interest if she receives ``in advance a 
written determination made by such official that the interest is not so 
substantial as to be deemed likely to affect the integrity of the 
services which the Government may expect from such officer or 
employee.'' Based on the Ethics Agreement's citation to the waiver 
contained in 18 U.S.C.  208(b)(l), it appears to set forth your intent 
to seek a waiver to participate in matters involving the Arctic Slope 
Regional Corporation.

    a.Please attest that you will recuse yourself from all matters 
before the DOI related to the Arctic Slope Regional Corporation 
(``ASRC''), if confirmed.

    b.Please attest that you will recuse yourself from all matters 
before the DOI related to the ASRC oil and gas development in 
accordance with Sec. 20001 of Pub. L. No. 115-97, if confirmed.

    c.Please attest that you will not seek a waiver in accordance with 
Section 208(b)(l) or any other relevant statutory or regulatory 
provision, if confirmed.

    Answer. The financial interest for which I will request a limited 
waiver under 18 U.S.C.  208(b)( 1)--my inherited Class A shares in 
ASRC--is identical to a financial interest--my Class C shares in ASRC -
that Congress has explicitly exempted from the prohibitions of 18 
U.S.C.  208 in 18 U.S.C.  208(b)(4). Due to the lack of clarity 
regarding the applicability of the 18 U.S.C.  208(b)(4) exemption to 
my inherited Class A shares and as set forth in my Ethics Agreement , I 
will request a limited waiver so that my inherited Class A shares will 
be treated the same as my Class C shares in the ASRC. Even if this 
limited waiver is granted, I will be restricted from participating in 
particular matters at the Department in which the ASRC is a specific 
party.
    It is important as a threshold matter to note that Alaska Native 
Corporation (ANC) shares are unlike shares of publicly traded 
companies. One cannot simply divest and reacquire ANC shares. Congress 
has recognized the unique status of these interests by creating a 
statutory exemption in 18 U.S.C.  208(b)(4) from financial conflict of 
interest laws for interests in certain ANC shares. This exemption 
reflects the fact that it is fundamentally unfair to expect an entire 
class of indigenous Americans, and in this instance, me specifically, 
to divest a birthright which I am lawfully permitted to have, in order 
to serve the American public.
    I currently own Class C shares in the ASRC. These shares were 
issued to me upon my enrollment in ASRC based on my status as a citizen 
of the United States who is of one-fourth degree or more Alaska Indian 
(including Tsimshian Indians not enrolled in the Metlaktla Indian 
Community) Eskimo, or Aleut blood, or combination thereof; who was born 
after December 18, 1971 to a parent who had been enrolled pursuant to 
ANCSA in the Arctic Slope Region of Alaska; and who was, at the time of 
issuance, a resident of the United States. As set forth in 18 U.S.C.  
208(b)(4), my Class C Shares in the ASRC qualify for a statutory 
birthright exemption from the financial conflict of interest 
prohibition of 18 U.S.C.  208(a). Under this exemption, I am 
prohibited from participating in particular matter at the Department in 
which the ASRC is a specific party.
    I also currently own Class A shares in the ASRC, which I inherited 
from my mother and grandmother. While the 18 U.S.C.  208(b)(4) 
exemption applies to my Class C shares, the applicability of this 
exemption to my Class A shares is unsettled, because those shares were 
acquired via inheritance from my mother and grandmother. As a result, I 
will request a limited waiver so that my inherited Class A shares will 
be treated the same as my Class C shares in the ASRC, and, even if this 
limited waiver is granted, I will be restricted from participating in 
particular matters at the Department in which the ASRC is a specific 
party.

    Question 3. On May 7, 2018, you provided the Committee with an 
update to your OGE Form 278e. The OGE 278e was final as of February 6, 
2018. This update states that you received additional income from the 
ASRC in the amount of $618,737 after February 6, 20 18, as part of 
ASRC's Employee Incentive Program and Long-Term Incentive Program.

    a.Please describe the structure and purpose of the ASRC Employee 
Incentive Program and Long-Term Incentive Program, including 
information on which ASRC employees are eligible to participate in 
these programs and how frequently the programs provide monetary 
incentives of $1,000+ to individual eligible employees.

    b.Please list all monetary incentives you have received from ASRC 
under the Employee Incentive Program and Long-Term Incentive Program 
for the last three years.

    c.Were the incentives listed in response to (b) reflected in the 
entries for ``ASRC, Wages'' you entered in your response to Question 
(G)(7) of the Committee' s Biographical and Financial Information 
Questionnaire?

    i.If so, please indicate the portion of amounts labeled ``ASRC, 
Wages'' that were obtained as part of your annual salary and the 
portion obtained as part of the Employee Incentive Program and the 
Long-Term Incentive Program.

    ii. If not, please explain your exclusion of these monetary 
incentives received under the Employee Incentive Program and the Long-
Term Incentive Program.

    d.Are you aware of any other ASRC employees who have received 
payments in excess of $100,000 from ASRC under the Employee Incentive 
Program and the Long-Term Incentive Program? If so, would you describe 
such payments as common?

    Answer. In response to questions a, b, and d, I have an employment 
non-disclosure agreement that prohibits me from disclosing proprietary 
information about ASRC. In response to question c, the incentives are 
specifically spelled out in my financial questionnaire under 'wages.'

    Question 4. Question (c)(4) of the Committee's Biographical and 
Financial Information Questionnaire asks you to describe any activity 
``during the last 10 years in which you have engaged for the purpose of 
directly or indirectly influencing the passage, defeat, or modification 
of any legislation or affecting the administration and execution of law 
or public policy, regardless if you were a registered lobbyist.''
    Your response provides a general overview of the types of 
activities you have engaged in as an ASRC employee during the 10 year 
period referenced in the question.

    a.Please list any specific federal legislation or regulation upon 
which you have sought to directly or indirectly influence the passage, 
defeat, or modification of as a private citizen or in a professional 
capacity since 2015.

    b.If confirmed, will you recuse yourself from any matters related 
to specific legislation, regulation, or Departmental policy for which 
you advocated on behalf of ASRC?

    c.If confirmed, will you recuse yourself from any matters related 
to specific legislation, regulation, or Departmental policy for which 
ASRC, Ukpeagvik Inupiat Corporation, the Inupiat Community of the 
Arctic Slope, or the Native Village of Barrow may hold an interest?

    d.Are any members of your immediate family currently or previously 
registered as a Congressional lobbyist? If so, please detail the dates 
during which each individual was registered as a Congressional 
lobbyist, the name(s) of any organization/client for which each 
individual lobbied, and a description of the issues on which each 
individual lobbied Congress.

    e.If you answered yes to (d) and you are confirmed, will you work 
with the Office of Government Ethics or your Designated Agency Ethics 
Official to ensure no conflicts of interest arise?

    Answer. In responses to questions a through c, T will adhere to the 
terms of the ethics agreement that I signed and which has been provided 
to the Committee. Under the terms of that agreement, I will be 
restricted from participating in particular matters at the Department 
in which ASRC and Ukpeagvik lnupiat Corporation are specific parties, 
and I intend to actively consult with the Department's Designated 
Agency Ethics Official to ensure compliance with that agreement, if 
confirmed.

    In response to question d, none of my immediate family members are 
registered as a Congressional lobbyist; in the event this changes, I 
will commit to work the Department's Ethics Office.
Personnel Decisions
    Question 5. The Office of the Inspector General (OIG) recently 
confirmed that DOI, acting through its Executive Resources Board, 
agreed to move 35 staff members and ultimately reassigned 27 of its 
approximately 227 members between June 15 and October 29, 2017. \1\ 
These reassignments have had a disproportionate impact on American 
Indian and Alaska Native (Al/AN) employees, with 11 of the 35 
transferred employees identifying as Native American. Some of these 
high-ranking AI/AN employees either come from, or formed significant 
connections over their years of service with, the communities in which 
they work.

    \1\ OFFICE OF INSPECTOR GENERAL. REPORT NO. 2017-ER-061, U.S. 
DEPARTMENT OF THE INTERIOR. REASSIGNMENT OF SENIOR EXECUTIVES AT THE 
U.S. DEPARTMENT OF THE INTERIOR (April 2018), available at https://
www.doioig.gov/sites/doioig.gov/tlles/
FinalEvaluaiion_SESReassignments_Public.pdf
---------------------------------------------------------------------------
    a.If confirmed, what reassurances can you provide that future 
reassignments will not have a disproportionate impact on AI/AN 
employees?

    b.What would you do as Assistant Secretary to ensure DOJ consults 
with the communities most affected by disruptive employee reassignments 
prior to reassignment?

    Answer. I am not at the Department and have not been briefed on any 
of the reassignments you mention. If confirmed as Assistant Secretary 
for Indian Affairs, I will follow the law and Departmental policy on 
the reassignment of employees.

    Question 6. The OIG found as a part of its review of DOI's 
reassignment of Senior Executive Service (``SES'') employees that the 
majority of affected individuals (17 out 27) questioned whether the SES 
reassignments were political, punitive, or related to their proximity 
to retirements. Of that majority, 12 SES individuals informed OIG that 
DOI may have targeted them due to their work on climate change, energy, 
or conservation. Some of these employees targeted for reassignment may 
remain under your supervision.
    If confirmed, how will you protect employees in your ranks that may 
have policy disagreements with you and others above you?
    Answer. My role as Assistant Secretary for Indian Affairs will be 
to engage the staff at the Bureau of Indian Affairs and Bureau of 
Indian Education to better understand the challenges and issues we face 
both internally and across Indian country. If confirmed, I will lead 
Indian Affairs according to our mission, which is ensuring the federal 
government is fulfilling its responsibility of sovereignty and self-
determination.

    Question 7. Recent news articles reported that three high-ranking 
DOI officials said that Secretary Zinke made several comments 
questioning the importance of a diverse workforce, saying ``diversity 
isn't important,'' or ``I don't care about diversity,'' or ``I don't 
really think that's important anymore.'' Secretary Zinke disputes these 
reports.
    What steps would you take as Assistant Secretary to ensure that 
DOl's workforce reflects the diversity of the people the Department 
serves, particularly as it applies to Indian Country?
    Answer. I cannot speak to the matters you reference. However, if 
confirmed as Assistant Secretary, I will sit down with staff at the 
Department to better understand the internal challenges and issues we 
face. I want to discuss how to support employees, fill gaps, and 
reinvigorate our commitment to the mission, which is ensuring the 
federal government fulfills its trust responsibilities.

    Question 8. It is well-established that DOI may give preference to 
AI/ANs when filling vacancies for jobs that provide services to AI/ANs. 
The basic goals of these Indian preference laws are clear: ``to give 
Indians a greater participation in their own self-government; to 
further the Government's trust obligation toward the Indian tribes; and 
to reduce the negative effect of having non-Indians administer matters 
that affect Indian tribal life.'' \2\
---------------------------------------------------------------------------
    \2\ Morton v. Mancari, 41 7 U.S.535, 541-42 (1974) (citations 
omitted).
---------------------------------------------------------------------------
    If confirmed, will you follow well-established Indian hiring 
preferences in filling vacant positions within your purview (e.g., 
initial hiring, reassignment, transfer, competitive promotion, 
reappointment or reinstatement)?
    Answer. If confirmed, I will follow all relevant laws that dictate 
matters pertaining to employees under my purview, including Indian 
preference.
DOI Reorganization
    Question 9. Secretary Zinke proposes dividing DOI's Bureaus into 13 
geographic regions across the country based on watersheds and other 
natural resource boundary lines. DOI's Fiscal Year 2019 budget request 
for the BIA included $900,000 ``to support the Department's migration 
to common regional boundaries to improve service and efficiency.'' Yet, 
at a recent Senate hearing to review DOI's Fiscal Year 2019 funding 
request and budget justification, Secretary Zinke stated that he is 
``not going to include the tribes unless they want to [be included in 
the reorganization].''

    a.If confirmed, what will you do as Assistant Secretary to ensure 
that DOI conducts a robust consultation with all potentially affected 
tribes?

    b.If confirmed, will you commit to carrying Indian Country's 
concerns to the highest levels of the federal government--not only 
Secretary Zinke but also the President?

    Answer. If confirmed, I look forward to being briefed on the status 
of the Department's reorganization efforts, including plans to consult 
with tribes. As Assistant Secretary for Indian Affairs, my role is to 
be an advocate for Indian country. To me, this means engaging all 
levels of government on Indian country's needs.
Bureau of Indian Education
    Question 10. In 2017, the Government Accountability Office added 
the Bureau of Indian Education (BIE) to its ``High Risk'' list. BlE is 
undergoing a number of reforms related to this designation and as part 
of a reorganization begun under the previous DOI Secretary.

    a.Please describe your familiarity with the BIE K-12 school system 
and outline the top three challenges that you believe face the Bureau.

    b.If confirmed, how would you approach working with BIE officials, 
Tribes, BIE parents, BIE students, and other stakeholders to ensure any 
reform efforts suit the needs of federally-operated and tribally-
operated BIE schools?

    Answer. As stated at the hearing, my education was impacted when my 
village transitioned from the Bureau of Indian Affairs to a locally 
controlled school system. There are significant challenges within the 
Bureau of Indian Education that must be addressed immediately to begin 
improved service delivery for Indian students. Many of the 
recommendations in GAO's High Risk report are common sense and common 
best practice i n the private sector. The top three challenges include:

         1 .Commitment to safety: I strongly believe that students 
        within the BIE system should not be condemned to an unsafe 
        learning environment. It is inexcusable that our children and 
        their teachers are in unsafe facilities and subjected to 
        conditions that can be corrected with basic property management 
        skills. This i includes annual safety facility inspections, 
        monitoring plan of safety inspections, and capacity building 
        with staff to address safety deficiencies.

         2.Clear strategic direction: Success and effectiveness in the 
        private sector are driven by clear direction. Information 
        highlighted by the GAO High Risk report illustrate a 
        significant need for strategic management and capital asset 
        plans, authority matrices, and workforce, quality control and 
        financial analysis procedures. I am driven to build a team 
        inside of BlE committed to execution of tactics necessary to 
        remove this bureau from the high risk list.

         3.Improved oversight: Identifying progress or success is 
        contingent upon measurable factors and accountability. This 
        includes effective oversight to ensure achievement of agency or 
        bureau goals. Tightening up project controls, performance, and 
        accountability measures will contribute to improved 
        efficiencies and effectiveness of service deliver to our 
        children.

    Question 11. The BIE provides funding to a number of tribal 
colleges and universities (TCUs) and directly operates two institutions 
of higher education, the Southwestern Indian Polytechnic Institution 
and Haskell Indian Nations University.
    Please describe your familiarity with TCUs and, if confirmed, how 
you would work with the BIE Director to support the missions of these 
institutions.
    Answer. I am generally familiar with TCUs. If confirmed, I look 
forward to working with the BIE Director to assess the existing needs 
within our tribal colleges and universities and consulting with tribes 
to determine how best to support these entities.

    Question 12. Reliable Internet connectivity remains a challenge for 
many K-12 and post-secondary schools in Indian Country.
    If confirmed, how will you work with other federal agencies 
(e.g.,the U.S.Department of Agriculture's Rural Development Services 
and the Federal Communications Commission's Universal Service Fund) to 
help schools on Indian lands access affordable state-of-the-art 
Internet connectivity?
    Answer. As an Alaska Native, I understand firsthand the challenges 
Indian country faces in terms of access to broadband. As I indicated at 
the hearing, I am committed to breaking down silos across Departments 
and agencies in order to deliver much-needed services to Indian 
country, including the students we serve.
Land into Trust
    Question 13. The BIA testified before this Committee two weeks ago 
and provided some data on land into trust acquisitions. DOI' s witness 
testified that, since this Administration began in January 2017, the 
BIA has taken 16,000 acres of land into trust. And of 1,300 pending 
applications, less than 2 percent (21 applications) are for gaming 
purposes. Trust acquisitions are important tools for Indian and Alaska 
Native Tribes to restore tribal homelands. In fact, Alaska Native 
tribes are now eligible for these important trust acquisitions as a 
result of Akiachak Native Cmty. v. Salazar, 935 F. Supp. 2d 195, 210 
(D.D.C. 2013).

    a.Do you agree that trust acquisitions are important for restoring 
tribal homelands, including in Alaska?

    b.What will you do as Assistant Secretary to continue land into 
trust acquisitions that appear to be stalled under this Administration?
    Answer. I cannot comment on the current status of land into trust 
applications but will commit to learning more, if confirmed.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                        to Tara Mac Lean Sweeney
    Question 1. Nevada recently became one of several states to 
decriminalize recreational use of marijuana. Nevada tribes are 
interested in pursuing marijuana-related economic development with the 
State's support. In fact, some Nevada tribes have already invested 
significant capital in this business, providing income for the health 
and welfare for tribal members. How will you support tribal efforts to 
engage in marijuana-related economic development in Nevada?
    Answer. If confirmed as Assistant Secretary for Indian Affairs, I 
will make it a priority to consult with tribes, including those located 
in Nevada, on their individual economic development interests and 
needs.

    Question 2. Both Secretary Zinke Interior and President Trump have 
questioned the designation of Gold Butte and Basin and Range National 
Monuments, both of which contain important tribal cultural resources in 
need of protection. How will you defend against Executive action 
proposing to diminish or eliminate these National Monuments? How will 
you guarantee tribes have a seat at the table when it comes to 
decisions, activities, and land management on and near their 
communities' lands?
    Answer. While I am not at the Department and not briefed on any 
decisions relating to national monuments, I understand how important 
this issue is to you. I look forward to learning more, if confirmed.

    Question 3. Taking lands into trust on behalf of the tribes is one 
of the most vital functions the Department undertakes. Recently, 
Department of Interior officials appear to be gearing up to change the 
fee-to-trust regulations (25 CFR Part 151), in particular for off-
reservation trust acquisitions. Acquisition of land in trust is 
essential to tribal self-determination. Do you think that the Part 151 
regulations need any changes? How would you ensure that any proposed 
changes fulfill the Indian Reorganization Act's goals ``to provide land 
for Indians'' and enable tribes to achieve and maintain self-support?
    Answer. I am not at the Department and only generally aware of the 
details relating to proposed changes to Part 151 regulations. I am 
committed to following the law and will look forward to learning more, 
if confirmed.

    Question 4. The Department of the Interior's FY 2019 budget 
justification includes almost $18 million to begin the process of 
reorganization of the Department of the Interior along 13 different 
regional offices, yet the Department has provided little information to 
Congress and very little organized tribal consultation. Can you 
describe what you consider appropriate tribal consultation? How will 
Tribes factor into the process and what benefits do you expect they 
will see from this process?
    Answer. While I cannot speak to the Department's reorganization 
plans, if confirmed, T will work diligently to uphold the federal 
government's trust responsibility to tribes. I place a high premium on 
consultation and if confirmed, I am committed to bringing people 
together and breaking down silos to ensure I have the information I 
need to make the right decisions. I stand ready and willing to work on 
behalf of all Native people.

    Question 5. Nevada does not have significant amounts of natural 
gas, oil, or coal production, but energy produced by solar and 
geothermal has been a major boon to the diversification of our economy, 
and has provided clean energy for Nevadans and throughout the west. In 
my state, many of the Indian tribes have plans to expand businesses on 
reservations in order to provide jobs for their members--some of this 
business activity includes opening their land to renewable energy 
projects. What do you intend to do to be helpful for Indian Country, 
and tribes in my state, who are looking to diversify their economy 
through clean energy investments?
    Answer. I believe sovereignty is about self-determination and the 
role of Assistant Secretary for Indian Affairs is to work with tribal 
leaders across Indian country on the priorities that are most important 
to them. If confirmed, I will work with tribes to ensure they have the 
tools necessary to exercise their rights and create economic 
opportunities that best fit their individual needs.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
